<html>
<title> - [H.A.S.C. No. 112-46]EFFICACY OF THE DOD'S 30-YEAR SHIPBUILDING AND AVIATION PLANS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-46]

                     EFFICACY OF THE DOD'S 30-YEAR

                    SHIPBUILDING AND AVIATION PLANS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              JUNE 1, 2011


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                      U.S. GOVERNMENT PRINTING OFFICE
  67-394                   WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee9fee1ceedfbfdfae6ebe2fea0ede1e3a0">[email&#160;protected]</a>  




              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    ROB WITTMAN, Virginia, Chairman
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
MO BROOKS, Alabama                   ROBERT ANDREWS, New Jersey
TODD YOUNG, Indiana                  LORETTA SANCHEZ, California
TOM ROONEY, Florida                  COLLEEN HANABUSA, Hawaii
MIKE COFFMAN, Colorado
               Michele Pearce, Professional Staff Member
                 Paul Lewis, Professional Staff Member
                      Famid Sinha, Staff Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, June 1, 2011, Efficacy of the DOD's 30-Year 
  Shipbuilding and Aviation Plans................................     1

Appendix:

Wednesday, June 1, 2011..........................................    41
                              ----------                              

                        WEDNESDAY, JUNE 1, 2011
 
     EFFICACY OF THE DOD'S 30-YEAR SHIPBUILDING AND AVIATION PLANS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2
Wittman, Hon. Rob, a Representative from Virginia, Chairman, 
  Subcommittee on Oversight and Investigations...................     1

                               WITNESSES

Blake, VADM John T. ``Terry,'' USN, Deputy Chief of Naval 
  Operations, Integration of Capabilities and Resources (N8).....     3
Eaglen, Mackenzie, Research Fellow for National Security Studies, 
  The Heritage Foundation........................................    26
Flynn, Lt. Gen. George, USMC, Deputy Commandant for Combat 
  Development and Integration....................................     3
Johnston, Maj. Gen. Richard C., USAF, Deputy Chief of Staff for 
  Strategic Plans and Programs, U.S. Air Force...................     5
Labs, Dr. Eric, National Security Division, Congressional Budget 
  Office.........................................................    24
O'Rourke, Ronald, Defense Policy and Arms Control Section, 
  Congressional Research Service.................................    22
Stanley, VADM P. Stephen, USN, Principal Deputy Director of Cost 
  Assessment and Program Evaluation, Office of the Secretary of 
  Defense........................................................     4

                                APPENDIX

Prepared Statements:

    Eaglen, Mackenzie............................................    77
    Labs, Dr. Eric...............................................    68
    O'Rourke, Ronald.............................................    58
    Stanley, VADM P. Stephen, joint with Maj. Gen. Richard C. 
      Johnston; VADM John T. ``Terry'' Blake; and Lt. Gen. George 
      Flynn......................................................    47
    Wittman, Hon. Rob............................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Wittman..................................................    95

Questions Submitted by Members Post Hearing:

    Ms. Hanabusa.................................................   101
    Mr. Wittman..................................................    99
     EFFICACY OF THE DOD'S 30-YEAR SHIPBUILDING AND AVIATION PLANS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                           Washington, DC, Wednesday, June 1, 2011.
    The subcommittee met, pursuant to call, at 11:00 a.m. in 
room 2212, Rayburn House Office Building, Hon. Rob Wittman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM 
       VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Wittman. Good morning. I want to call to order the 
Subcommittee on Oversight and Investigations of the House Armed 
Services Committee. I want to welcome you folks to the hearing 
this morning. I appreciate your taking your time to join us. I 
think today's efforts will be worth your time and worth all of 
our attention.
    I want to welcome everybody to the Oversight Investigations 
Subcommittee's hearing on the efficacy of DOD's [the Department 
of Defense's] shipbuilding and aviation plans. The main purpose 
supporting the 30-year shipbuilding and aviation plans 
requirement is to ensure effective congressional oversight of 
DOD plans by giving Congress the information we need to make 
decisions on issues that are not consistently available in the 
5-year data of the Future Years Defense Plan better known as 
the FYDP.
    In my view, we tend to spend too much time arguing about 
tactics when we are discussing these plans and not enough time 
focused on long-term strategy. We are constantly reacting to 
events rather than planning for them, resulting in a system 
that is burdened with waste and inefficiency.
    We cannot afford to do this any longer. The stakes are too 
high, and we owe it to the American taxpayer to insist on well 
thought-out, fiscally sound, long-term policy decisions that 
shape our national defense strategy, and emphasize long-term 
objectives.
    It is critical for us to make sure we have that long-term 
perspective to understand where we need to go and the best way 
to get there. The central question put in simple terms is, are 
we doing the best job we can when we develop and implement our 
30-year plans to meet or Nation's current and future threats?
    To illustrate this point, I want to highlight just a few 
examples of what I am talking about. And these are general 
examples: The decision not to build submarines in the 1990s, 
which has created a shortfall in the attack submarine force 
structure that we won't be able to fix in the foreseeable 
future; decisions to cut or efforts to kill a number of 
programs, including the F-22 fifth-generation fighter, the C-17 
cargo aircraft and the Air Force's combat search-and-rescue 
helicopter, all of which arguably place American air supremacy 
at risk or at least at question; and ending purchases of the 
next generation of DDG-1000 destroyers and killing the MPF-A 
large-deck aviation ship, reducing our Navy to the smallest it 
has been since 1916.
    While arguments can be made to support the reasoning behind 
these decisions, no on can argue about the number of growing 
threats we face from both state and non-state actors, each with 
ever expending capabilities, ready to challenge their own.
    Between force reductions, a dramatic slowing of new starts 
and closures of production lines, America's domestic industrial 
strategy is slowly being whittled away, emphasizing the need 
for smart long-term strategic planning.
    I look forward to hearing your views on this important 
subject and discussing how we can ensure that as we make 
difficult policy decisions on long-term procurement, we don't 
inadvertently place our national security at risk.
    Before introducing our witnesses, I want to turn to our 
ranking member, Mr. Cooper, for opening remarks.
    Mr. Cooper.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 45.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
  RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mr. Cooper. Thank you, Mr. Chairman, I appreciate your 
calling this hearing.
    I know that there are a lot of issues involved in the 30-
year shipbuilding plans. I hope that we can keep this hearing 
away from personal and the parochial and focus on the strength 
of America.
    Some issues that I am interested in are industrial agility. 
On a recent visit to China, we were able to visit a 
shipbuilding yard there in which they said they can build any 
super tanker in the world in 6 months, a feat that would be 
apparently impossible in this country.
    Also developments in technology, things such as 
supercavitation, have changed the nature of surface warfare. 
And that was a largely unanticipated development in the 
science, that has changed things probably beyond ability of any 
30-year plan to foresee. So thank you for calling this hearing. 
I will look forward to hearing from our expert witnesses.
    Mr. Wittman. Very good. Thank you, Mr. Cooper.
    As we get started, I would like to ask unanimous consent 
that nonsubcommittee members, if any, be allowed to participate 
in today's hearing after all subcommittee members have had an 
opportunity to ask questions. Is there any objection?
    Without objection, nonsubcommittee members will be 
recognized at the appropriate time for 5 minutes.
    And we will hear from two panels today, witnesses from our 
first panel are Major General Richard Johnston, Deputy Chief of 
Strategic Plans and Programs, U.S. Air Force; Vice Admiral P. 
Stephen Stanley, Principal Deputy Director of Cost Assessment 
and Program Evaluation, Office of the Secretary of Defense; 
Vice Admiral John Terry Blake, Deputy Chief of Naval 
Operations, Integration of Capabilities and Resources; and 
Lieutenant General George Flynn, Deputy Commandant of Combat 
Development and Integration.
    Gentlemen, thank you so much for joining us today, and we 
will begin with General Flynn.

STATEMENT OF LT. GEN. GEORGE FLYNN, USMC, DEPUTY COMMANDANT FOR 
               COMBAT DEVELOPMENT AND INTEGRATION

    General Flynn. Chairman Wittman, Representative Cooper and 
members of the subcommittee, it is good to be here with you 
today. The Marine Corps' ability to serve as our Nation's 
principal crisis response force is due in large part to your 
continued strong support. Our Marines thank you very much for 
that support.
    I am here today to address your questions regarding the 
Marine Corps' role in defining the operational needs and 
identifying the required enabling capabilities necessary to 
support the Nation's expeditionary force and readiness, a force 
that must be able today to respond to today's crisis.
    The Marine Corps is partnered with the United States Navy 
in defining requirements and advocating for the necessary 
resources to meet our operational needs. Our goals are to have 
stability in amphibious maritime prepositioning and support 
base capabilities vessel development, as well as associated 
ship funding production and delivery schedules supported in the 
program and budgeting process, so we can achieve the fleet 
inventory necessary to support our forward presence engagement 
and crisis response capability.
    Clearly there are challenges in meeting operational 
requirements in today's highly dynamic security environment. 
Finite resources, ship supply, and maintenance requirements, 
and the resulting ship operational availability for 
predeployment operations and training can collectively impact 
our ability to accomplish our assigned missions.
    In partnership with the Navy, the Marine Corps looks 
forward to working with you to address these issues so that we 
are best postured to continue serving our Nation as its force 
in readiness. Again, thank you for the opportunity to be here 
and I look forward to answering your questions.
    Mr. Wittman. Thank you, General Flynn. Admiral Blake.

STATEMENT OF VADM JOHN T. ``TERRY'' BLAKE, USN, DEPUTY CHIEF OF 
  NAVAL OPERATIONS, INTEGRATION OF CAPABILITIES AND RESOURCES 
                              (N8)

    Admiral Blake. Chairman Wittman, Ranking Member Cooper and 
distinguished members of the subcommittee.
    Thank you for the opportunity to appear before you today to 
address the efficacy of the Department of Defense's 30-year 
shipbuilding and aviation plans.
    The Department of the Navy is committed to building an 
affordable ship and aircraft fleet that supports the National 
Defense Strategy, the Maritime Strategy and the 2010 
Quadrennial Defense Review.
    The development of the 30-year shipbuilding and aviation 
plans enable this effort, providing valuable insight into 
future investments and challenges. In addition, these long-
range plans promote stability in the defense industry and 
support decisions, making for long-term capital investment and 
workforce planning.
    The Department of the Navy's 30-year shipbuilding plan is 
built around three basic precepts. First, the plan projects 
what platforms the Navy will need to accomplish its assigned 
missions over the three decades. Second, the plan balances 
needs against expected resources and assesses the risk 
associated with the Department's balancing efforts. Finally, 
the plan aims to maintain the shipbuilding design and 
industrial base necessary to build and maintain tomorrow's 
Navy.
    To accurately support these precepts, the general context 
of the plan is spelled out in three distinct 10-year periods. 
In the first 10-year period, cost estimates are judged to be 
most accurate due to the known ship capability and quantity 
requirements. In the second 10-year period, cost estimates for 
the force structure are less accurate as the threat becomes 
less clear, industrial base issues become more uncertain and 
technologies continue to evolve and change requirements.
    Finally, in the last 10-year period, cost estimates are the 
most notional, since these estimates are largely based on the 
recapitalization of today's legacy ships and ships procured at 
the beginning of the near term of reporting.
    The Navy also provides input to the Department of Defense's 
30-year aviation plan. These shipbuilding and aviation plans 
provide our best efforts to address a very difficult planning 
challenge. The Navy supports the requirement for the submission 
of the long-range shipbuilding aviation plans, as they provide 
important for Congress, the Department of Defense, and industry 
to make critical investment decisions.
    Thank you all for all you do to support the United States 
Navy and for all you do for the men and women in uniform 
serving around the globe.
    Mr. Wittman. Thank you, Admiral Blake. Admiral Stanley.

  STATEMENT OF VADM P. STEPHEN STANLEY, USN, PRINCIPAL DEPUTY 
 DIRECTOR OF COST ASSESSMENT AND PROGRAM EVALUATION, OFFICE OF 
                    THE SECRETARY OF DEFENSE

    Admiral Stanley. Chairman Wittman, Ranking Member Cooper 
and members of the Committee, thank you for the opportunity to 
appear before you to discuss the Department's 30-year aviation 
and shipbuilding plans.
    While the Department has always done long-range planning, 
we understand that the value of these plans lie more in what we 
learn through the planning process than in the content of the 
plans themselves. This is especially true for planning beyond 5 
years.
    The planning process provides a useful opportunity to 
consider and confront out-year implications of our near-term 
decisions. However, developing this plan requires speculation 
about the future security environment, technology, development, 
operational concept and fiscal constraints.
    The speculative nature of projecting beyond the 5-year 
window of the Future Years Defense Plan does not stem from any 
process and organizational failures. It is caused by the 
inherent uncertainty of the future.
    The history of these submissions is relatively short. The 
first submission of the shipbuilding plan was in 2000. And the 
first aviation plan followed 10 years later in 2010.
    The 2011 National Defense Authorization Act changed the 
reporting requirement for the shipbuilding plan from an annual 
report to a quadrennial report, while the aviation plan 
remained an annual report. Plans were not submitted with the 
President's fiscal year 2010 budget, due to uncertainty 
regarding our defense strategy. During this period, in 2009, a 
new national security strategy and associated defense budget 
projection were being developed.
    This year, the Department submitted the aviation plan on 
the 12th of April, the plan was delayed because internal budget 
decisions were concluded a month later than usual. Also, this 
year there was more debate than last year on out-year aviation 
plans. Resolving these issues and coordinating the results 
delayed submission of the plan.
    Both long-range aviation and shipbuilding plans follow a 
similar development process. Individual Services maintain long-
range plans for these weapon systems as part of their Title X 
responsibilities.
    However, these plans are based on fiscal, operational and 
technical assumptions. Once the current year planning and 
budgeting process concludes, the Department has considerable 
work to do. The Services have to develop and refine their 
projections, reconcile these projections with the Selected 
Acquisition Report, SAR, data and ensure the estimates adhere 
to fiscal constraints.
    For the aviation plan CAPE [the Director of Cost Assessment 
and Program Evaluation] develops the report based on the inputs 
from the Services. Navy drafts shipbuilding plans based on the 
shipbuilding stakeholders' inputs. CAPE and the Navy develop 
tables and charts, refine themes, apply quality control to the 
data, and combine inputs to form an integrated view. These 
plans are the Department's best efforts to address the 
challenge of the developing highly complex projections over a 
30-year period.
    The development of these plans involves a great deal of 
collaborative analysis throughout the Department in order to 
work through fiscal technical and operational assumptions. 
These plans are not precise procurement blueprints; rather they 
represent the Department's forecast of what tomorrow's forces 
may look like given today's outlook.
    Mr. Wittman. Very good. Thank you, Admiral Stanley. General 
Johnston.

STATEMENT OF MAJ. GEN. RICHARD C. JOHNSTON, USAF, DEPUTY CHIEF 
   OF STAFF FOR STRATEGIC PLANS AND PROGRAMS, U.S. AIR FORCE

    General Johnston. Sure. Chairman Wittman, Ranking Member 
Cooper and distinguished members of the subcommittee, it is a 
privilege to have this opportunity to discuss the Air Force 
contribution to the Department of Defense's 30-year aircraft 
procurement plan. The United States Air Force remains committed 
to drafting of the aircraft procurement plan and to the 
development of necessary aviation platforms that provide the 
Joint Force with global vigilance, global reach and global 
power. In support of the National Security Strategy, National 
Defense Strategy, National Military Strategy and 2010 
Quadrennial Defense Review.
    The following statement is a brief summary of how the Air 
Force's strategic planning process operates to serve the 
interest of national defense and how it informs the 30-year 
aircraft procurement plan.
    The Air Force benefits from a disciplined strategic 
planning approach to establish a long-term aviation investment 
plan. Specifically, future force structure projections are 
developed and refined after each programming milestone. These 
force projections align with the aforementioned national 
strategy documents. Major milestones include submission of the 
Air Force program objective memorandum and the delivery of the 
Presidential budget. Informing both planning and programming 
efforts is the use of periodic systematic assessments of the 
future operating environment.
    The United States Air Force performs a strategic 
environmental assessment biannually to anticipate potential 
implications of critical trends to operations in air, space and 
cyberspace domains 20 years into the future. The Future Force 
Projection serves as a basis for the annual Service Secretary 
approved 20-year planning and programming guidance, the intent 
of this process is to shape the future force by linking 
programmatic decisions to strategic planning. The sufficiency 
of the plans for achieving and maintaining aircraft force-
structured goals are then reported within the annual 30-year 
aircraft procurement plan.
    The Air Force strategic planning process directs future 
force programming through informed strategic planning. Within 
the Air Force, the lead organization responsible for the plan 
is the Office of the Deputy Chief of Staff for Strategic Plans 
and Programs. It is also reviewed by several offices to include 
acquisitions, legislative liaisons; intelligence, surveillance, 
and reconnaisance; the operations plans and requirements; the 
studies and analysis assessments and lessons learned; and of 
course, the Chief of Staff and the Secretary of the Air Force.
    The United States Air Force regularly and systematically 
develops and refines its long-term aircraft investment plan. 
The Air Force's deliberate process drives the Service to make 
fiscally responsible choices that are grounded in strategy. 
Furthermore, the Air Force remains committed to the 
collaborative approach with the Office of the Secretary of 
Defense and the Department of Navy in building a sound 30-year 
aircraft procurement plan for the Department of Defense and 
Congress that is both useful and timely.
    Thank you for the opportunity to discuss the Air Force 
contribution to the Department of Defense long-range aviation 
plan and your support to the men and women of all the Services. 
I look forward to your questions.
    [The joint prepared statement of General Flynn, Admiral 
Blake, Admiral Stanley, and General Johnston can be found in 
the Appendix on page 47.]
    Mr. Wittman. Thank you, General Johnston. And panel 
members, thank you so much for joining us today and for your 
thoughtful, insightful opening remarks. And we will proceed now 
into questioning.
    Admiral Stanley, I will begin with you. The observations 
that you made about the process being important, I think is 
spot-on. The process I think for developing good information 
and for decisionmaking is absolutely critical. And we do know 
that these plans are speculative in nature. I think you pointed 
that out, and certainly there is some uncertainly with that. 
Obviously, the longer we go out in the future, the less 
certainty there is. But I think they play a very, very 
important role in providing timely information to the House 
Armed Services Committee and, in a larger sense, to Members of 
the Congress in understanding the challenges that we face as 
decisionmakers.
    And some of the frustration I think that has been borne in 
the House Armed Services Committee is getting that information 
in the strategic plans in a timely manner in a way that we can 
use it in our decisionmaking. As you know, that frustration has 
been compounded over the last several years because of that 
lack of coordination in getting information in time for us to 
have it reflected in the decisions that we make. And you spoke 
of some of the hiccups in this year's process.
    Let me ask you, rather than retreading how the process took 
place, which I think you did an admirable job of laying out. 
Let me ask you this, how do you believe the process can be 
changed, fixed to make sure the information that comes out of 
the 30-year shipbuilding plan, the 30-year aviation plans, 
makes it to the House Armed Services Committee members and the 
committee staff itself in a timely way to make sure that we get 
it so that those pieces of information, which I think are very 
valuable, make their way into the planning process?
    Admiral Stanley. It is a good question. How do you improve 
it? We often struggle with the complexity of the plans, trying 
to do something as complicated as this in projecting it as far 
into the future as the current legislation requires. It is a 
very complicated task. So I think the simple answer to your 
question is let's try to focus on the things that you and we 
value and need most. Okay?
    Now what would that be? I think it is important--a piece of 
this we need to work at together. I think we need to work to 
answer--it is not clear to me exactly what you need, maybe, 
right? So we have to meet that. We are not--we are--we want to 
meet the needs of Congress. So how do we move forward?
    My instinct is, again, the near-years provide the most 
significant input; the longer your projections become less 
important. Having a plan that is tied to the Administration's 
current view of strategic risk that is reflected in the 
Quadrennial Defense Report seems to make sense to me. Were I to 
try to shape it, I would say that a reasonable balance is to 
have a plan that is less, maybe less long in duration, maybe I 
will suggest 20 years just to throw an idea out. Maybe it is 
less duration. It is less frequent. Right? Maybe the QDR 
[Quadrennial Defense Review] is enough. But in the annual 
submission that is currently required with the shipbuilding 
plan, or the 10-year data table, that is where we focus. So we 
focus more on the things that you need, which is easier for us 
to provide timely information on, than the complexity of things 
that are maybe of less value.
    So I would propose really three things. I believe the long 
report tied to the Quadrennial Defense, and tying to the 
Quadrennial Defense Review makes sense. I think limiting the 
scope of the report, potentially to 20 years. I will say, it is 
not clear to me that the last 10 years does neither you nor I 
much good.
    And then the last thing I would suggest is potentially that 
we look at how do we time it? Think about when this 
Administration last changed. The new Administration comes in. 
It has to develop a National Security Strategy. It has to 
develop its fiscal constraints, how it is going to view the 
requirements of the Department. That takes time.
    So over the last couple of administrations that changed, 
then that budget and the associated Quadrennial Defense Review 
has come in later. To try to then get a 30-year plan to reflect 
that new direction of new administrations, master security 
strategy in QDR, is very difficult. Potentially, the 30-year 
plan should be delayed until the next budget. So I would 
suggest maybe we work on those types of areas. Again, a 
quadrennial, lesser scope and potentially a year delay after 
the QDR.
    Mr. Wittman. Very good. Thank you, Admiral Stanley. And 
that leads me to the next question, when we talk about the 
current process in terms of planning, is it normal, even under 
the auspices of doing an evaluation leading up to the QDR with 
a 30-year shipbuilding or 30-year aviation plan, is it normal 
then for there to be an annual evaluation, or is there still an 
annual update that leads up to the QDR with this long-range 
planning process? And how rigorous is that outside the window 
of the FYDP? And I think that alludes to some of the specifics 
of what you had talked about regarding reforms.
    Admiral Stanley. Yes. We update our proposals every year. 
Normally that is focused on the near-years, the FYDP type of 
proposals, but things change. You alluded to the idea of who 
could have forecasted what is happening in the Middle East 
today. Ten years ago, we couldn't have projected the demand for 
the unmanned air vehicles that we require today on a day-to-day 
basis and saving lives in the theater right now, so things 
change. Our plans need to be flexible enough that we can 
respond to the needs of the warfighter.
    Certainly how you authorize and Congress appropriates also 
is a change that we need to consider every year as we come up 
with the next year's plan. So, yes, they change. Normally those 
changes on a non-QDR year are more near-term than long-term.
    Mr. Wittman. Thank, you Admiral Stanley. General Flynn, I 
wanted to ask you a question, if you look now at the 30-year 
procurement plans, the Marine Corps and the Army aren't 
specifically required to go into those areas, but there have 
been the questions that come up about where the Marine Corps' 
needs might be, especially for both the Marine Corps and the 
Army as it relates to rotary-winged aircraft. And I wanted to 
get your thoughts and ideas about specifically, do you think 
that should be part of this 30-year planning process? And if 
so, what specifics do you think should be incorporated into the 
aviation plan as it relates to potentially including rotary-
winged aircraft?
    The reason I bring that up is more and more discussion is 
taking place about the high ops tempo that we are experiencing 
now. The high usage of rotary-winged aircraft, especially in 
some pretty taxing environmental conditions and then, where do 
we go down the road with planning for the replacement of that 
fleet. And then how do we make sure we are addressing that in a 
timely way, especially as we ramp down. We all know the 
questions about reset. If there is nothing out there in the 
plan, the question then becomes how do we integrate that in 
with all the other needs that are being identified in both the 
30-year shipbuilding and 30-year aviation plans?
    General Flynn. First of all, in our Department of Aviation, 
we have an aviation campaign plan that lays out our way ahead 
for all our type model series aircraft to include both fixed-
wing and also rotary-wing. So General Robling, he develops that 
plan. So there is a plan to, for example, how we are going to 
replace our heavy lift helicopters in the future? As to whether 
that needs to be part of a 30-year program, I think in general 
it does make sense in some ways just because of the expensive 
aircraft in the future. But I would like to give you a more 
detailed response for the record if I could.
    [The information referred to can be found in the Appendix 
on page 95.]
    Mr. Wittman. Absolutely, absolutely. And General Johnston, 
I wanted to just touch base with you in looking at the 
paralleling of the planning processes. As you know, in the 30-
year shipbuilding plan, the Navy projects both ship deliveries 
and ship retirements, which keeps that at least within some 
frame of number of ships. And I was going ask for your thoughts 
about the aviation plan in looking not just at deliveries but 
also looking at how retirements would occur. It doesn't seem in 
the aviation plan that the retirement schedule is quite as 
definitive as far as what we expect with our aircraft.
    And I know that we continue to push the life of our 
aircraft sometimes to the point of where it really creates 
bigger issues for us down the road. It seems like to me maybe 
in the planning process if we could look at further defining or 
more clearly defining the retirement phase for aircraft and not 
kind of pushing air frames to their max, we might be able to be 
a little more robust in our decisionmaking. I just want to get 
your reflections on the aviation plan and how it reflects 
aircraft retirements.
    General Johnston. Sir, I think you kind of hit on the 
challenge, trying to anticipate when an aircraft will ``time 
out'' if you will. Recently our Chief of Staff of the Air Force 
approved the extended service life profile on trying to figure 
out how long an aircraft will sustain and continue to be part 
of our Department of Defense and part of our Air Force. And we 
are using that obviously to project out, we are looking at 
``SLEPing'' [implementing a Service Life Extension Program], 
you know our Block 40, Block 52, F-16s [General Dynamics 
Fighting Falcon fighter jets] based on that, but trying to 
figure out exactly when those airplanes will time out, knowing 
that we are trying to get the best value we can out of them for 
the American taxpayer, extend them as far as we can based on 
the mission requirements of that platform. And also tying them 
into new procurements as they come on board, such as obviously 
the F-35 [Lockheed Martin Lightning II fifth-generation fighter 
jet]. So trying to bring that all together, we probably have--I 
know we have a good handle on that, as far as within the 10-
year period, although those will change. So, year to year, if 
you were to ask us to include retirement of platforms, you 
would see changes, because as you fly the aircraft, it is based 
on total number of hours when you decide to retire them.
    I remember landing a 30,000-hour C-130 [Lockheed Hercules 
transport aircraft] in Kandahar with NVG [night vision] 
goggles, and that was about it, that airplane was going to 
leave from there and go to the boneyard. So when do you 
anticipate it? It all depends on the operational tempo, if that 
airplane is involved in Southwest Asia--we are in the Middle 
East. Are you flying it more often? Is it back home doing 
steady state operations where it isn't flying as much? It is 
very difficult to project that. But I can assure you that the 
Air Force projects that, plans for that and anticipates that in 
how we develop our aviation plans.
    Mr. Wittman. Okay. Very good. Thank you, General Johnston. 
Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. There is a common 
phrase: The difficult we do immediately; the impossible takes a 
little longer.
    I am a little worried that we have asked you gentlemen to 
do the impossible. Any 30-year crystal ball is going to be 
cloudy. And Lord knows we ask plenty of reports from the 
Pentagon already. There hasn't been a Secretary of Defense in 
either party that hasn't complained loudly about the paperwork 
requirements.
    Now if it enables us to do our constitutional oversight 
responsibilities, that is one in thing. On the other hand, in 
context--and I appreciate Admiral Stanley putting it in context 
for us--this is a relatively new and unproven method of 
oversight.
    Meanwhile, some other obvious features of the Pentagon are 
not being tended to: The GAO [Government Accountability Office] 
has complained for many years that the Pentagon is the least 
auditable of all government agencies, and relatively little 
headway has been made to find out where taxpayer dollars go 
within the puzzle palace.
    So to ask anyone to come up with a 30-year window in the 
future is really a recipe for embarrassment, because no one can 
anticipate the changes on the horizon. As one of the witnesses 
pointed out, just in land warfare alone and the current 
conflicts we are engaged in, requirements for MRAPs [Mine 
Resistant Ambush Protected vehicles] and other things have 
changed remarkably quickly.
    So, as I said in my opening comments, I am a little more 
interested in agility and the ability to respond to future 
threats than in locking in programs that may or may not be 
useful 10, 20, 30 years hence.
    In the worst-case scenario, I am worried that a 30-year 
oversight plan like this could just be a new type of pork 
preservative as people seek to lock in constituent facilities 
that may be popular back home but may not strengthen America.
    So I think we have to guard against that danger. It is 
always good to have plenty of cushion and reserve, but given 
the uncertain nature of warfare and the constantly changing 
nature of warfare, a 30-year time horizon, which is longer than 
most careers in military itself, is going to be a difficult 
task to achieve.
    So I appreciate you gentlemen's patience in putting up with 
requirements like this. I personally am doubtful of their 
usefulness, but I appreciate the good humor in which you try to 
comply with the request.
    Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Cooper. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And first of all, I 
want to thank you and the ranking member for holding this 
hearing and want to thank all the witnesses and tell you at the 
outset that you are all good men. I know that you have served 
your country well, that you love your country. And I am not 
going ask you any tough questions today.
    And the reason I am not going to ask you those tough 
questions is because you can't answer me. And that is what 
concerns me the most.
    As the ranking member stated, it is sometimes difficult 
when we look at 30-year plans because we know we won't hit 
them, but that doesn't mean we shouldn't look at them. Because 
the importance of the 30-year plan, if we don't graph it out, 
we don't know whether our short-term actions are going to get 
us down the road or not.
    The second thing is it is not just agility that we need to 
look at; it is honesty, because the Congress either needs to 
play a role in this or we need to get out and just say we don't 
have a part in it.
    And I think that the thing that concerns us, Admiral 
Stanley, you made a good comment when you said that it is not 
so much the substance of the plan, but it is what you learn in 
that planning process. And yet we, in doing oversight, we have 
got to pass a National Defense Authorization bill at some point 
in time that authorizes what you are doing. We never get access 
to the most important part of the planning process, which is 
what you learn during that process.
    This is what bothers me, not from the four of you, but when 
the Secretary of Defense can come out and he can say, as the 
ranking member mentioned, he didn't want to give us all the 
information because he is concerned that if he does, he may not 
get what he wants. Whether it is parochial reasons or maybe it 
is not parochial reasons at all. Maybe it is because some of us 
just believe we have got to have a strong Navy to defend the 
United States of America, and we want to ask some tough 
questions about how to get there.
    But when the Secretary of the Navy comes out and issues gag 
orders and says the Pentagon can't even answer questions for 
us, we question how in the world can we get those core 
questions that you say were part of the process.
    And the Secretary of the Navy just refuses to give us a 
shipbuilding plan when the statute requires it. It may not be 
easy. It may not be convenient. But the statute says how to do 
it. We question how do we get at that process. When we hear 
comments like anything outside of 5 years are just fantasy 
worlds in terms of projections, that concerns us.
    But then when we see numbers like what we see in the 
reports, where we see the shipbuilding plan presented to us, 
and let's don't take 30 years out, let's take the short-term, 
and we see the projections that are in that shipbuilding plan 
for the number of ships we are going to have and the cost of 
that. And you have a $15.9 billion per year requirement. The 
CBO [Congressional Budget Office] says it would take $19 
billion a year to get what you say. That is a huge difference 
for us. And how we cross that divide and get those answers, we 
really don't know, especially given the fact that for the last 
30 years we only had $15 billion put in shipbuilding, and we 
know the Secretary said he is going to come up with $400 
billion worth of cuts down the road.
    So this is what I don't understand, and I don't expect you 
to answer me today, maybe some time in the hall, you can answer 
me, or maybe some time you can give us the information or maybe 
the next panel can do it. But how do we get at a process where 
we can get closer to the truth, because it is true that things 
change in administration. Let me tell you what doesn't change, 
our risks don't change. The number of ships the Chinese have 
don't change. The number of ships we are building don't change. 
There are some core principles that we ought to get at.
    And I will just conclude with this: One of the things that 
frightens me the most is whether, like the independent panel 
looking at the QDR says, we have gotten a process where we are 
just kind of validating what we are already doing, instead of 
stepping back and looking at the risk that the Nation is facing 
and saying, how are we going to create true plans that get us 
there?
    Because if we need more ships in our Navy, like the 
independent panel said, like the Navy says that we have, we are 
just confusing the American people and deceiving them when we 
put out a plan that says that we are going have to ramp that up 
in the next few years to get where our goals are, but we know 
there is no way we are going to get at those dollars. And so, 
at some point in time, I hope we can get at this process.
    I hope we can get a process where, Admiral, we can get at 
the things you learn during that analysis and then putting that 
plan together. But also a situation where we can have some 
forum with you guys where you are not in a career ender if you 
come in here and tell us something that is not a part of that 
plan, where we can sit down and say, what do we really need to 
defend the United States of America? And I am afraid we are not 
there yet, but I thank the chairman and ranking member for 
holding hearings like this that maybe will help get us there 
because our country is depending on it.
    As the ranking member said, the Chinese can build those 
tankers in 6 months, but Jim, as you know, it didn't start in 
the last couple of years. They have been able to do that for 
the last 5 years. They are the kinds of things we need to be 
addressing.
    And gentlemen, thanks for all you have done in your career, 
and if you have any insight on that you can get back to us off 
the record some time, we would love to hear it. Mr. Chairman, 
thank you.
    Mr. Wittman. Thank you, Mr. Forbes. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, thank you for 
holding this hearing. Last April I was over in the U.K. with a 
briefing with ministry of defense officials there. And although 
I share a lot of the ranking member's questions about the value 
of some of these reports, it was interesting getting their 
perspective because when the new government, conservative 
government, came into power, because they don't have any kind 
of regular statutory-driven review process--it really is almost 
at the whim of the government that happens to be there at the 
day in question--they engaged in the context of, obviously, a 
huge fiscal crisis of the equivalent of a defense review. And 
what they found was that the projected acquisition programs 
that they had along with sort of budget projections, there was 
probably close to a 20-percent shortfall in terms of whether or 
not the British government was going to be capable of funding 
those needs. And that drove a lot of the budget design of the 
first budget that was passed.
    So, obviously, that has value in terms of just sort of 
having at some point a planning process where you can sort of 
see where you are flying here, as opposed to flying in the 
dark. Of course, the irony of it was that one of the reductions 
that they proposed was in fixed-wing aircraft and shipbuilding. 
And within months, they were engaged in Libya requiring the use 
of those very platforms that really were going to be subject to 
some of the budget constraints, which shows, again, the ranking 
member's point that trying to evaluate risk, even in the matter 
of the short-term, let alone the long-term, is just really hard 
to do.
    I guess maybe coming from Connecticut, where we are the 
land of actuaries, where people sit around and project 50-year 
storms, 100-year storms, 500-year storms, to some degree, it is 
an equivalent sort of challenge. I don't envy you in terms of 
doing that.
    One question I guess I would ask, Admiral Stanley, is just 
in terms of evaluating risk, you know, as you said, it is very 
complex, there are a lot of factors that you have to build into 
it. One of them is whether or not we will have an industrial 
base which will be capable of dealing with sudden change in 
challenges that our country faces. Is that one of the 
priorities in terms of, again, trying to structure out a plan 
either short-term or long-term?
    Admiral Stanley. The simple answer is, yes, we do consider 
the industrial base. I like your parallel to what the British 
review did. And I think a lot of those strategic issues about 
what does the Nation need for defense, how do we look at the 
risk against our Nation in the future, sorts out and we have 
that discussion as part of putting together the National 
Security Strategy and the National Defense Strategy and 
Quadrennial Defense Review.
    So that is the place where I think that strategic debate 
should be. And whatever shipbuilding or aviation plans that we 
have that look forward--and it does look forward into a dimly 
lit future--those plans as they come together reflect that risk 
in that direction.
    In these plans is not where we should be debating, do we 
need 400-ship Navy or 300-ship Navy; what is the size of the F-
22 [Lockheed Martin/Boeing Raptor fifth-generation stealth 
fighter aircraft] force that is required. That should come out 
of the strategic reviews would be my input.
    Considering the industrial base and the importance of the 
industrial base is a part of these plans. I have established 
some sort of strategy for the Nation. I am now implementing 
that in the procurement profiles of the ships and aircraft that 
the Nation needs. And as part of that, we make sure it is 
executable by getting our people from acquisition technology 
and logistics, industrial base, to come in and evaluate to make 
sure that we can actually sustain that. So, yes, I think it 
plays, but I think it plays there. And I think there is a 
division between a strategic review and what the Nation needs 
for the long-term and the number of platforms that is required 
to execute.
    Mr. Wittman. Thank you, Mr. Courtney. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. Gentlemen, thank you 
all for being here and thank you to for your service to our 
country. I appreciate that. Some of my questions may have 
already been asked and answered, so if it is duplicative, I 
apologize.
    In this time of high government spending and debt, many in 
Congress are looking at ways to rein in our out-of-control 
spending, and they are starting to look at big-ticket items 
from the DOD budget.
    Just last week, a colleague of mine introduced an amendment 
aimed at cutting $150 million from the LHA-7 [large-deck 
amphibious assault ship] program. Cuts like the one suggested 
last week strengthen to me the possibility of further delays in 
the ship's construction, which I feel like will also push back 
other ship construction as well.
    Given that so many shipbuilding programs are connected both 
financially and in terms of planning, how do you think cuts or 
delays in the current shipbuilding plan affect the overall 
capabilities of the force in the future and our ability to meet 
or force-level requirements?
    Admiral Blake. I think you bring up an excellent point. I 
think one of the key ingredients, if you will, that we have to 
apply when we are going through this process is flexibility.
    You bring up the case of delay in a shipbuilding contract. 
I will tell you, when we have delays in deliveries of hulls, we 
have to then go back in and evaluate, can we accept that risk 
or not?
    If we determine that we cannot accept that risk, then we 
have to look at things to do extensions on the service lives of 
other ships in order to be able to fill that COCOM [combatant 
command] requirement. So I would tell you that basic approach 
would be as you got these perturbations within the industrial 
base. I think the Navy has to go back, look at what they have 
done and then see if they have to modify their plans.
    I will tell you, the Department is very supportive of the 
planning process that goes on. We also recognize that this is 
an open and collaborative process, and it must be flexible. And 
so when an issue like that comes up, the first thing we would 
do is, we would sit down and say, all right, what are the risks 
involved, where do we need to go, and how do we get there?
    Mr. Palazzo. So it does delay our shipbuilding plans for 
our force for the future; it just keeps pushing things out to 
the right.
    Admiral Blake. Well, I think what you have to look at is 
you have to look at the tradeoffs. For example, if a ship is 
being delayed in its delivery, then you have to determine, all 
right, then I am going to have to keep another asset around, 
but if I keep that other asset around that was originally going 
to go out of service, there is, if you will, a bill to be paid. 
You have to keep those personnel available. You have to look at 
what maintenance has to be done on that ship in order to extend 
its service life. And then you have to factor all of those in, 
in order to ascertain, where am I going to take the money from 
in order to put it toward this particular issue?
    So I would tell you, one of the examples I could give you 
is we have a large-deck amphib which is currently going to be 
about 16 months behind on schedule. We are going have to extend 
one of other large-deck amphibs in order to meet that gap. So 
we have to lay the decommissioning from a vessel from 1 year to 
another. And the associated costs go with that, because we have 
the personnel cost; we have the maintenance cost; we have the 
operations cost. It is one of the ways we handle the risk.
    Mr. Palazzo. With China's military build-up expected to 
continue, particularly that of the Chinese navy, do you feel 
that these delays and shortfalls in our own shipbuilding 
programs put us at risk?
    Admiral Blake. I think you have to look across the entire 
portfolio. You can't just look at a single issue in isolation. 
You must, if you will, look across the entire shipbuilding plan 
and the aviation plan in order to determine where you can 
afford to take risk, and then you have to apply it across the 
entire portfolio. You can't take a single item, go to a single 
data point and come up with a single solution.
    If you go down that path, what you end up with is, in 
isolation, any single issue is solvable, but when taken across 
the entire portfolio, what you have to do then is you have to 
balance your risk and recognize you have fiscal limitations.
    Mr. Palazzo. Thank you. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Palazzo. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. General Flynn, 
Admiral Blake, and Admiral Stanley, in reading your resumes, I 
notice you all graduated the same year from the Naval Academy. 
So, given that, and I don't mean to embarrass you, it is 
about--what is it--36 years ago, it sort of falls within this 
30-year plan that we are talking about. So give me a very 
practical approach, and my practical question to the three of 
you--and I haven't forgotten you; you kind of don't fit--the 
rest of you, we are talking about a 30-year plan. You have been 
around 36 years. Would you be able to--of course, you wouldn't 
have the positions you have, but given that, you can answer in 
terms of what major changes you have seen that you would have 
been able to predict and not predict in that 36-year period? 
And given that, I am just trying to get a good feel for sort of 
what Ranking Member Cooper was saying. How impossible is this? 
Would you back then have been able to look forward and predict 
where we are today? And what would you say about--we are 
looking at shipbuilding, so would you be able to say in that 
period of time that we are where we should be in terms of ships 
today? And would you have had the magic wand and would you have 
been able to do that?
    I think it is just interesting that you all graduated the 
same year, so there is nobody that can say, well, 10 years ago, 
it wouldn't have been the same. So given all your experiences 
and your common background, can you answer my question? I don't 
care what order you do it.
    General Flynn. As the one who had their first choice of 
service selection--and for the record, I am the youngest of the 
three.
    Ms. Hanabusa. I am not asking what rank you graduated, 
okay, just----
    General Flynn. Ma'am, I think the first part is, I have 
been listening today, and I do agree with Admiral Stanley. I 
think the key part of this is you have to have a strategic 
basis for what your plan is. And there was an Army general who 
once said, we are never going to get the future 100-percent 
right; but we can't afford to be 100-percent wrong.
    So there is a value to doing a long-range plan, as to 
whether that is 20 or 30 years, I tend to agree with Admiral 
Stanley that 20 years is about right.
    But then what you also have to be able to do is when you 
build the execution plan to get there in 20 years, you are 
searching for consistency and stability. And I think that means 
on a yearly basis, then, you need to take a look at what 
assumptions you have based your plan on and whether they are 
going to play out.
    For example, if you have a ship delay in construction, what 
does that do to the rest of the plan? And you need to take a 
look at that every year. If there is a maintenance issue, are 
you right? I think that if you focus on the 5 years of the 
program, when we do a defense program, that is really where the 
focus is, but that should underpin, I think, a 20-year effort 
that is based on some strategic context.
    Admiral Blake. Ma'am, for the record, as the best-looking 
of the three, as you go back and you look, I think you have 
significant events that take place almost on a 10-year basis. I 
will give you the best example, no one I think could have 
predicted the Vietnam drawdown. We were all midshipmen at the 
Naval Academy when that started. No one could have predicted 
the Reagan buildup when it started in the 1980s. No one could 
have predicted the peace dividend with the Cold War coming to 
an end in the 1990s. No one, I think, would have predicted in 
2000 that we were only a short time away from an event such as 
9/11 and that we would be involved in two wars today.
    So I think your point is absolutely accurate in that no one 
of us can predict, if you will, what the future will hold. I do 
however believe that planning is indispensable. And I think you 
have to have a corroborative process that gets you there. You 
have to have--and I look at the current shipbuilding plan. I 
think if we hadn't had a look at the long range, whether it is 
10 years or 20 years, we wouldn't necessarily have focused on 
the fact that we have a significant challenge with the SSBN(X) 
[next-generation ballistic missile submarine] program. We 
wouldn't necessarily see that our surface force combatants, our 
cruisers and destroyers, are going to go away in large numbers 
in the 20s. We wouldn't necessarily have been able to project 
the fact that our submarine numbers are going to go down and 
that we have to address that.
    You know, one of our goals, which we have accomplished in 
recent times, is we are now able to build two submarines a 
year, which is no small accomplishment given the fiscal 
constraints we operate under. So I would say, as you look 
across that, there is significant value in the planning 
process. I would go to the point, as I mentioned in my opening 
remarks, when you go out to 30 years, that last 10 years is 
notional; it is a one-for-one replacement.
    If you were to ask me what would I look at, I think we do 
need to focus on that 20-year period, because we cannot project 
those events like the peace dividend or Reagan buildup or 
whatever event it happens to be, so it is important that we 
have that. I guarantee you, in 2000, none of us were looking at 
the use of the UAVs [unmanned aerial vehicles] that we 
currently have in inventory back in 2000. No one, I don't 
think, projected that by 2011, we would have the number of 
assets available for the purposes they are now being used. I 
definitely agree with you that you have to do that from that 
perspective.
    Ms. Hanabusa. Thank you. Mr. Chair, can I ask that the 
remaining admiral and general respond in writing?
    Mr. Wittman. Yes.
    Ms. Hanabusa. Thank you very much.
    Mr. Wittman. Thank you so much. We appreciate that. Ms. 
Pingree.
    Ms. Pingree. Thank you, Mr. Chair, and thank you for 
allowing me to sit in on your committee. It is an interesting 
conversation, and I don't have a lot of questions to ask. I 
really was looking forward to hearing a little bit of your 
projections out into the future. And I think this is useful, 
particularly a useful hearing in some of the challenges that 
come up when you try to project 30 years out, which my 
colleagues have been discussing. And you all have mentioned 
that it is very hard to tell what technology will be available 
to us, where we will be at risk. And I applaud you for 
attempting to do that.
    I will just add, from my perspective, and I do have a 
similar parochial lens for this because I do have a shipyard in 
my district, so we think a lot about our relationship with 
building ships, with what our industrial capacity is, with our 
inability sometimes to negotiate contracts. And from our 
perspective, the lack of sufficient ships projected out into 
the future. So if you want to make any comments on that. I see 
from a very short-term lens that we are not meeting the need of 
building sufficient ships to power our Navy.
    And that I see every day the diminishment of the industrial 
base, particularly of an aging workforce. We, of course, 
believe that we build the best ships in the world in the State 
of Maine. And we worry about what happens when we don't have 
future generations that are trained to do that.
    As some of my colleagues have mentioned, all you have to do 
is take one look at China and think, what are we letting go of 
in this country when we may easily find ourselves in the short 
run and certainly in the long run facing a much more powerful 
Navy without the capacity to deal with it?
    So, to a certain extent, I look at it and say, it is good 
we are thinking 30 years out, but I am really worried about the 
next 10 years. It doesn't seem that we're on track to do what 
we need to do in the short term. So if you want to make a 
comment on that, that would be useful to me.
    Admiral Blake. Ma'am, I will tell you, in our 
deliberations, as we are building plans, one of the key 
considerations is the fragility of the industrial base, the 
fact that the industrial base over the past several years has 
shrunk in size and the fact that we recognize that that 
database is a national asset and that it is not easily 
recoverable.
    And so when we put plans together, one of the key factors 
is the health of continuing to support the database, and that 
is no small issue when we are doing that as we build the plan.
    I can tell you when we look at, whether it is your yard up 
in Bath or the yards down in the Gulf or it is the yards on the 
West Coast or the ones in Virginia, we absolutely look at every 
one of those. We also look at, not only the tier-1 yards but 
the tier-2 yards, because we recognize that whatever decision 
is made, it is going to have an affect on both of those, on the 
work at those yards and how we are going to be able to maintain 
that industrial base into the future.
    Ms. Pingree. Thanks. I would just comment, it doesn't seem 
from my perspective, and I know many of my colleagues have 
high-performance yards in their district as well, but it 
doesn't seem like at this rate we are keeping up with 
maintaining the industrial base, training the individuals that 
we need in the future, and we are certainly not building ships 
fast enough to meet our capacity or our need.
    Thanks.
    Mr. Wittman. Thank you, Ms. Pingree. Mr. Conaway.
    Mr. Conaway. I will pass.
    Mr. Wittman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Gentlemen, thank you 
for your testimony today and your service to our country. My 
question, I appreciate the discussion here today about the 
challenges we face in the shipbuilding budgets. I wanted to 
focus, if I could, on the submarines, which I think I have 
worked on for maybe 11 years now on the committee. Now the Navy 
projects the attack boats and the shortfalls are going to 
bottom out at about 39 boats in 2030 versus a requirement for 
having a total of 48 submarines. That is a peak shortfall of 
nine attack boats or 19 percent of the requirement.
    More to the point, the Navy is going to be at least 10 
percent short in attack submarines for an 8-year period of time 
in 2027 and remain low through 2055 and to the end of the 30-
year period. Can you tell me, how is the Navy going to be able 
to perform its mission adequately with that kind of a 
shortfall, particularly the Naval modernization effort and 
demands on our attack boats performing missions of various 
other types?
    Admiral Blake. Sir, let me begin by saying, first of all, I 
think one of the key factors that occurred is that we were able 
to get to building two boats a year. As you know, there have 
been several years where we were only able to build one. So 
that was the first start of the process we were able to get to 
build a second SSN [attack submarine].
    As to the long-term effect and how we are going to deal 
with that, I think there are several approaches we need to look 
at and consider, and those deliberations will be going on over 
a period of time. As you know, we currently have 55 boats in 
the inventory. You are absolutely correct. We are going to go 
down to a low of 39 boats in the inventory. And I think we are 
going to have to look at such things as looking at the current 
inventory and seeing, if you will, what the best of breed is 
and then seeing if we can do service life extensions on some of 
those boats that are currently in the inventory.
    Another way we can look at fulfilling COCOM demand is to 
look at deployment extensions, if in fact that--and those are 
just two options out there.
    I think, as I mentioned earlier, I agree, when you look at 
any single issue in isolation, I think--and I view it as--or we 
are talking about the attack issue right here, I would agree 
with you that we should be able to address that in some way. 
But then when you have to look across the entire portfolio and 
balance all the requirements that we have across the entire 
portfolio, that is where it gets to be a real challenge, 
because it is not just a submarine issue; there is an 
amphibious issue. As I mentioned earlier, there is a surface 
combatant issue. So as we look at each one of those, we can't 
take each one of those in isolation. We have to delve into each 
one of those across the entire portfolio.
    Mr. Langevin. How does the shortfall--clearly, the 
requirement says we need to have 48 boats, and I know that we 
are only meeting about 60 percent of the request of the 
combatant commanders right now with respect to the mission 
submarines to fulfill. How does that compromise us? How do we 
close that gap?
    Admiral Blake. Well, that one is not in my lane, per se, 
but I would tell you in general what you have is you have the 
combatant commanders and the fleet commanders get together, and 
if you will, they do a risk assessment to see what they have in 
their inventories, and then they fill their global requirements 
based on what they have in the inventory. And you can't address 
the issue overnight. But I think for any deeper than that, sir, 
I would have to take it for the record.
    Mr. Langevin. Well, let me try a different but related 
question.
    Admiral, I understand that the Navy is trying to find a way 
to put an additional attack boat into the shipbuilding plan for 
fiscal year 2018 column to bring the fiscal year 2018 figure to 
two boats, and that is fine. But it is only one additional 
ship. You are still going to need to put another five to six 
boats into the plan to avoid dropping below the 90 percent, 95 
percent of your requirement. If the Navy isn't planning to 
refuel older boats, attack boats, and it is not planning to put 
an additional six or seven new attack boats into the 
shipbuilding plan, then can you please tell me what the Navy 
does plan to do to substantially mitigate the projected 
shortfalls in attack submarines?
    Admiral Blake. Thank you, sir. First, you are absolutely 
correct. In the current mix, there is a single boat to be 
delivered in 2018. That will be at the earliest a POM-14 
[Program Objective Memorandum for Fiscal Year 2014] issue 
because that would be at the end of the FYDP. And I am sure 
there will be significant deliberations between now and then 
just to address that single issue.
    With respect to how we would address the overall shortfall 
as you go to the out-years, I would go back to, I think we are 
going to have to look at the viability of looking at service 
life extensions if in fact that is viable whether, and then we 
will have to determine if it is, or if we have to go to 
deployment extensions.
    Mr. Langevin. Thank you.
    Mr. Wittman. Thank you, Mr. Langevin. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. And Vice Admiral 
Stanley, it seems like we've become fixated rightfully, so, on 
the number of ships in the United States Navy. And so, I think 
the current projection is we are trying to get to a 313-ship 
Navy. But I think my concern is, in getting there, are we, and 
focusing on the number, are we too focused on building the 
least costly ships versus the more capital, the larger capital 
ships. So we seem to be focused on the littoral combat ship and 
the joint high-speed vessel in terms of getting those numbers. 
But my concern is that there doesn't seem to be the focus on 
the next-generation ballistic missile submarine. And I wonder 
if you can comment on that from a long-term budget point of 
view.
    Admiral Stanley. So, first, on the SSBN(X), it is funded. 
It is being developed in consonance with our British 
counterparts. We are doing what we need to do to deliver that 
capability now. It remains funded. I don't think that the 
requirements at all are in jeopardy. But your larger question 
is the number of ships. Is that an appropriate focus? Quantity 
has a capability importance all its own. So it is important. 
But to say that 313 is precisely the right number is, I think, 
shortsighted. The number of ships varies.
    In this plan, this 30-year plan, it varies significantly 
from the 280 some that we are at today. I think it pegs out 
around 225 or 325, something in that ball park, comes back 
down. So you have got a bunch of sine curves in this plan that 
all gets added up, and you know, we say that the requirement is 
about 300, is what the Department said. You quoted the CNO 
[Chief of Naval Operations], who says that 313, you know, is 
his floor. It is important. I don't want to take away from 
that. But I also recognize that it is not a single point. It is 
not, a precise number is not always right, okay? So it is much 
more important to get at what capability that force has. The 
way Secretary Gates thinks about it is we have got to focus on 
the flexibility of our force, make sure that we have a force 
available that is adaptable to this future, which is hard to 
foresee. We want to make sure that the ships that we are 
buying--use LCS [littoral combat ship] as the example, quite 
honestly, it is basically a new concept. That mission module 
and the ability to change that mission module will allow the 
Navy to send the right capability forward that they need. So 
that is important. And having that in some quantities I think 
makes some sense. How many of the more expensive types of ships 
do we need? It gets at sort of what we are talking about over 
here, where, what is China going to do? And what kind of 
capabilities do we need to provide the right opposing force to 
the Chinese capabilities?
    And that is a discussion that we have. I think the plan 
that we have right now is a good balance of capability and 
capacity that the Nation needs.
    Mr. Coffman. Anybody can answer this, probably certainly 
General Flynn. The needs of the United States Marine Corps in 
terms of the amphibious capability and shipping, I think it is 
a minimum, I understand there are 33 ships in order to deploy 
two marine expeditionary brigades, and I think the commandant 
and the prior commandant have stated that that is a minimum, 
that they need that as a--force projection capability is a 
minimum. General Flynn, I wonder if you can comment on that and 
where we are in this whole process of reaching. Are we at 28 
right now and reaching the 33?
    General Flynn. Sir, first of all, it is not just the two 
brigade requirement. And it is not just focusing on the large 
threat. It is how many ships do you need to do what we are 
actually doing today around the world, and we believe that the 
requirement was 38. Accept risk down to 33 because of fiscal 
reality, and you can do both. You can do your two brigade 
requirement and you can meet the demands that we are seeing 
today. Right now, we have an inventory of about 30 amphibious 
ships. We will go to 29 this year. So you have assumed 
additional risk, not only in your larger requirement but also 
in your day-to-day operations. And where you see that manifest 
itself is not meeting the deployment because we always figure 
out a way how to meet the deployment and the commitment.
    Where you see it is in the ability to do maintenance and 
the ability to train the force. This summer, we are likely to 
deploy a marine expeditionary unit and amphibious ready group 
that for the first time that all three ships will be together 
is when they deploy. And that just shows you that that is when 
you accept risk in the inventory. It is not just the large 
enemy out there or potential enemy; it is also the day-to-day 
demands on the thing where you see the stressing and 
manifestation comes first in maintenance and in training at the 
same time.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Mr. Coffman. Panel members, thank 
you so much for joining us today. We appreciate your insights. 
I would ask this.
    Ms. Hanabusa had a request for some written responses. If 
you will provide that to her.
    And if you will do this as a formal request from the 
committee, and that is, we would like to have your written 
reflections on what we can do to improve the planning process. 
And I know that you all had stated some of your thoughts today, 
but we want to make sure that we give you the opportunity to 
give us a more detailed list of things that you think can be 
done to improve this particular planning process. And again, 
with the focus of making sure that we get as highly robust 
information as possible in a timely manner back to the House 
Armed Services Committee. And we appreciate your reflections 
and thoughts on that and thank you so much for joining us 
today.
    We are going to break for about 3 minutes and let the next 
panel be seated, and then we will begin questioning them.
    We will now begin with our next group of panelists, and 
they include Mr. Ron O'Rourke, Defense Policy and Arms Control 
Section, Congressional Research Service; Mr. Eric Labs, from 
the National Security Division, Congressional Budget Office; 
and Ms. Mackenzie Eaglen, Research Fellow for the National 
Security Studies, the Heritage Foundation.
    I want to thank you all so much for joining us today and 
appreciate you taking the time to provide your insights on 
this, what I believe is a critical planning process, in 
understanding what we can do to push the issue forward. And I 
want to welcome all of you and again, thank you for your 
participation.
    As we previously arranged, opening statements will be 
limited to 5 minutes due to time constraints. I am going to 
allow one exception, and that is Mr. O'Rourke. He has asked to 
provide some additional comments, so we will allow that 
particular time.
    Additionally, written testimony, absent objection, will be 
made part of the record, and we look forward to hearing from 
all of you in discussing the oversight issues we have been 
concerned about here in Congress. And I also remind my 
colleagues that we will use our customary 5-minute rule today 
for questioning, proceeding by seniority and arrival time.
    So, with that, we will begin our testimony with Mr. 
O'Rourke.

 STATEMENT OF RONALD O'ROURKE, DEFENSE POLICY AND ARMS CONTROL 
            SECTION, CONGRESSIONAL RESEARCH SERVICE

    Mr. O'Rourke. Chairman Wittman, Ranking Member Cooper, 
distinguished members of the subcommittee, thanks for the 
chance to speak today on the 30-year shipbuilding plan.
    The main purpose of the 30-year plan is to support 
effective congressional oversight of Navy shipbuilding by 
giving Congress information that is important to performing 
this oversight function but not available in the 5-year data of 
the FYDP. The plan enables Congress to assess whether the Navy 
intends to procure enough ships to achieve and maintain its 
stated force level goals.
    In particular, it makes visible to Congress projected ship 
inventory shortfalls that are either not visible or not fully 
visible in the 5-year data of the FYDP. Given the long 
construction time of ships, as well as financial and 
industrial-based limits on ship procurement rates, mitigating 
shortfalls that appear to be far in the future can sometimes 
involve making adjustments to ship procurement rates beginning 
in the near term within the FYDP.
    The Navy's addition of a second DDG-51 [Arleigh Burke-class 
guided missile destroyer] to the fiscal year 2014 column can be 
viewed as a possible case in point. By providing Congress 
advance warning of projected inventory shortfalls, the 30-year 
plan gives Congress an opportunity to consider whether to 
address these shortfalls before it might become too late to do 
much about them.
    The value of the 30-year plan might be likened to the value 
of headlights for a truck driver traveling on a country road at 
night. The driver can't make abrupt changes in the truck's 
speed and direction, and consequently gets a critical benefit 
from the advanced warning the headlights provide of approaching 
curves or obstructions in the road.
    The 30-year plan can help Congress assess whether there is 
a fundamental imbalance between Navy program goals and 
resources, whether ship procurement plans are likely to be 
affordable within future Defense budgets, whether Navy planning 
is reasonable in terms of assumed service lines for existing 
ships and estimated procurement costs for new ships, and what 
the potential industrial and base implications of the Navy's 
intentions for ship procurement might be, as well as whether 
the Navy's planning is reasonable in terms of assumed service 
lives for existing ships and, as I said, estimated procurement 
costs for new ships.
    Right now, the 30-year plan is helping inform Congress on 
how addressing the projected shortfalls in cruisers and 
destroyers and in attack submarines might need to take into 
account the funding demands of the Ohio replacement program. 
For example, Congress might decide that it would be easier to 
put additional destroyers and attack submarines into the 
shipbuilding plan before procurement of Ohio replacement boats 
begins, meaning between now and fiscal year 2019.
    I understand there are uncertainties associated with 
assembling the last 10 years of a 30-year plan. But the Navy 
isn't exactly helpless in this regard. For one thing, the Navy 
can project which ships are scheduled for retirement in those 
years. And since the average life of a ship looking across the 
fleet is about 35 years, those last 10 years will capture most 
of the retirements that aren't projected for the first 10 or 
20. Seeing the retirements projected for those final 10 years 
can help Congress assess whether those retirement dates are 
consistent with real world ship operating tempos and 
maintenance practices.
    Even though there will be ships in the strategic 
environment between now and the final 10 years of the plan, 
Navy planners can nevertheless project that the Navy will 
likely need to have certain capabilities associated with the 
broad and enduring roles of the Navy. Indeed, one of the 
strengths of our multimission Naval forces is that, although 
they are designed and built in a certain strategic environment 
with certain specifics missions in mind, they usually wind up 
being used many years later very successfully in different 
strategic environments for different missions. The Navy's 
aircraft carriers, cruisers and destroyers and attack 
submarines are all cases in point.
    Although there are uncertainties concerning the last 10 
years of the 30-year plan, that doesn't mean those last 10 
years aren't of value for Congress to see. They can help show, 
for example, whether a projected shortfall is temporary in 
nature or more open-ended and long-lasting. That is important 
because mitigating a temporary shortfall might only require 
SLEPing some existing ships, while mitigating a more open-ended 
shortfall, like the cruiser destroyer shortfall, might need to 
involve putting additional ships into the shipbuilding plan.
    The last 10 years of the 30-year plan provide Congress with 
a baseline against which to examine the possible implications 
of potential longer-term changes in technology, budgets, or the 
strategic environment. The final 10 years currently show that 
the Navy has not yet identified a strategy for fully closing 
the cruiser destroyer and attack submarine shortfalls, even 
after procurement of the Ohio replacements boats is finished.
    That is potentially important for Congress to see because 
it can inform congressional consideration of options for 
procuring additional destroyers and attack submarines between 
now and then, or for funding research and development work on 
new ship technologies or new shipbuilding methods that might 
alter the shipbuilding affordability equation for those final 
10 years.
    In summary, the Navy is a long-run proposition because of 
the timelines involved, building, maintaining, reshaping and 
ultimately replacing a fleet isn't done over a period of 10 or 
20 years but over a period of 30 years or more. The 30-year 
shipbuilding plan responds to this fundamental aspect of the 
responsibility for providing and maintaining a Navy.
    As the CRS [Congressional Research Service] Specialist for 
Naval Affairs, a key part of my job is to support congressional 
oversight of DOD activities by identifying potential oversight 
issues for Congress relating to the Navy, and except for the 
annual DOD budget submission itself, no document is more useful 
to me in performing this role for Congress than the 30-year 
shipbuilding plan.
    Mr. Chairman, this concludes my testimony. Thank you again 
for the chance to speak on this issue, and I will be pleased to 
respond to any questions you might have.
    [The prepared statement of Mr. O'Rourke can be found in the 
Appendix on page 58.]
    Mr. Wittman. Thank you, Mr. O'Rourke.
    Dr. Labs.

    STATEMENT OF DR. ERIC LABS, NATIONAL SECURITY DIVISION, 
                  CONGRESSIONAL BUDGET OFFICE

    Dr. Labs. Mr. Chairman, Ranking Member Cooper, members of 
the subcommittee, I want to thank you for giving me the 
opportunity to discuss with you the value of the Department of 
Defense's annual 30-year shipbuilding and aviation plan for the 
Congress' oversight responsibility.
    Every year Congress is asked to approve the procurement of 
a year's worth of expensive items, such as ships and aircraft. 
Well-constructed 30-year acquisition plans for major weapons 
system can provide information about the long-term implications 
of those decisions.
    The 30-year ship and aircraft plans benefit Congressional 
oversight in at least three different ways: First, DOD's 30-
year shipbuilding and aviation plans enable the Congress to 
assess the long-term effects of the incremental decisions that 
are made each year in the annual authorization and 
appropriation process. Ships and aircraft take decades to 
develop and procure, and often remain in the inventory for 
decades more. In the absence of a 30-year plan, the cumulative 
effects of those annual decisions may not be well understood. 
With the previous panel, you discussed the issue of the 
submarines in the 1990s versus the effect of having a long-term 
shortfall. That would be an example I would cite here as well.
    Second, the 30-year plans may reveal whether an imbalance 
exists between the inventory goals for ships or aircraft and 
the resources the military Services are projected to receive. 
If such an imbalance was indicated, the Congress might want to 
more closely review the defense strategy that was the basis for 
the DOD's inventory goals, the amount of money the Department 
would receive, or how those resources would be spent. For 
example, the Navy's 2011 shipbuilding plan revealed 
definitively that the Service would face a substantial 
budgetary challenge in the 2020s and the early 2030s when it 
expects to purchase 12 replacements for the Ohio-class SSBNs 
and still pay for other ship programs. That in turn over the 
past year has led the Congress and the Navy to focus more early 
attention on reducing the costs of those ships.
    Indeed, the very process of the Navy's efforts to put out 
its 30-year shipbuilding plans over the past 5 years showed 
many year-to-year changes. Those individual changes were not so 
important in themselves but as a whole, greatly illuminated for 
Congress the Navy's challenge of developing a program that 
meets inventory goals and is affordable.
    I agree with Mr. O'Rourke. In fact, aside from the budget 
and accompanying justification materials, the Navy's 30-year 
ship procurement plan is the most important document I use in 
the work I perform in support of the Congress.
    Third, the 30-year plans also provide Congress with 
information about the relationship between DOD's long-term 
inventory objectives and its assumptions about service lives of 
ships and aircraft. The 30-year plans make those assumptions 
more transparent so that Congress has the opportunity to 
examine the realism of those assumptions and to judge whether 
it is investing enough resources to maintain the fleet.
    For example, the Navy's plan assumes 40 years for new 
destroyers, but the Navy has virtually no experience in keeping 
surface combatants longer than 30 years. There is, of course, 
as was mentioned earlier, considerable uncertainty in any 30-
year ship or aircraft procurement plan. The Navy's 2011 plan 
highlighted some of the difficulties in both developing such a 
plan and in estimating its costs, particularly for ships to be 
purchased in the 2030s.
    Although such uncertainties limit the utility of 30-year 
plans as predictive tools, the documents can nevertheless help 
inform the Congress of changes in plans and circumstances that 
are likely to arise. For example, the Congress is frequently 
faced with events and decisions about military aircraft 
inventories and acquisition budgets that have long-term 
implications. Recent events include the structural failure of 
an F-15 Eagle that could have portended the need to retire 
those fighters many years earlier than expected, delays in the 
development of the F-35 Joint Strike Fighter that will probably 
compel the Services to retain older aircraft longer than 
planned, and the decision to begin developing a new long-range 
bomber that will require substantial funding in the years well 
beyond DOD's FYDP.
    In much the same way, the CBO's budget baseline provides a 
reference trajectory for Federal spending under current law, a 
well documented 30-year aviation or shipbuilding plan can 
provide a picture of how forces may evolve over time and what 
investments will be needed if current plans and assumptions 
remain unchanged. The value of that picture lies not in its 
accuracy as a blueprint of the future, but serves as a basis 
for Congress to evaluate the long-term implications of changes 
to today's plans and circumstances.
    The Congress' oversight of Navy shipbuilding programs could 
be improved if the Navy included in its report the accompanying 
tables, listing by class and types of ship that would be 
procured, delivered, retired and serving in the fleet each year 
over the 30-year period. Similarly, long-term aircraft 
acquisition plans would be more informative if they displayed 
respective inventories of each type of aircraft over the span 
covered to include the schedule over which consisting aircraft 
are phased in and phased out as well as the underlying 
assumptions.
    Although DOD has not produced 30-year plans for ground 
combat vehicles, rotary- and fixed-wing aircraft and trucks, 
such plans would be useful for oversight of the Army's and 
Marine Corps' acquisition plans, particularly if they provided 
information about the size and age of current inventory, 
inventory goals and plans to replace or modernize vehicle and 
aircraft fleets, and the projected cost of doing so. Thank you, 
Mr. Chairman, and I would be happy to answer any questions that 
you may have.
    [The prepared statement of Dr. Labs can be found in the 
Appendix on page 68.]
    Mr. Wittman. Thank you, Dr. Labs.
    Mrs. Eaglen.

  STATEMENT OF MACKENZIE EAGLEN, RESEARCH FELLOW FOR NATIONAL 
           SECURITY STUDIES, THE HERITAGE FOUNDATION

    Ms. Eaglen. Thank you, Chairman Wittman, Ranking Member 
Cooper. It is a pleasure to be here. It is also good to see 
Chairman Forbes as well earlier.
    I agree with my colleagues that the purpose of the 30-year 
plans is critical, not as a document to predict the future with 
precision; it is really about forcing an examination on the 
back-end to offer clarity on the front-end. And I know that the 
DOD witnesses testified to the clarity within the FYDP, but it 
is the 5- to the 20-year period that I think that really 
matters. And I don't think you can get that 20-year clarity 
unless you go even slightly beyond that into the 30-year.
    Ron highlighted a point I would like to make. Identifying 
broad trends and shortfalls is really where the pressure points 
are in terms of fleet size and composition. Cost goals and 
planning shortfalls is really where the utility of these plans 
come in for Congress. So, for example, Admiral Blake referenced 
the SSBN(X) as something, and Eric just did as well, as a 
program and a pressure point in terms of budgetary resources 
available and a potential plan resource mismatch, something 
that Congress needs to begin to start working on right now with 
the Department to help alleviate that strain, coming up with 
creative solutions.
    The two aviation plans that have been submitted so far to 
Congress have highlighted the exact same thing for the U.S. Air 
Force and this ``bow wave'' of spending that is going to be 
required, beginning right in 2020 and throughout that decade, 
as the Joint Strike Fighter enters full-rate production at 70 
to 80 per year, as well as the tanker, which will be fully on 
line, and then, of course, the bomber will be just entering or 
hopefully near full-rate production. This is in addition to all 
of the other things the Air Force will be doing during that 
decade. And so that is the equivalent to me of the SSBN(X) and 
the elephant in the room in terms of budgetary resources in 
terms of aviation. And that being just roughly 7 fiscal years 
from now; 2020 sounds far away, but the building is already 
working on POM 13, and you can see how quickly this arrives.
    Something my colleagues have referenced and I agree with is 
that this, and the previous panel said, the process was 
important. It may not necessarily be what is on the document, 
but the learning curving of the process. Part of what I believe 
this means is culling and highlighting the various assumptions. 
In fact, the witnesses previously said, those may often change. 
And they change annually, if not more so. And when assumptions 
change, what we found is build rates and new procurement and 
the service life extension and retirement plans of ships and 
aircraft are not mutually exclusive. Tinkering with one, even 
if it is a brand new program ripples through the entire fleet, 
the legacy fleet and the new one coming on line.
    So, for example, the previous panel said that retirement of 
ships and aircraft changes vary, based on war-time usage rates, 
base on op tempo and a variety of other things. That then 
affects the service life extension needs of other programs, but 
you can't look at service life extension needs without looking 
at the new procurement and build schedules of what is coming on 
line. But that is also linked to the maintenance plans or 
delays of everything. So you see that we have a circular 
argument here.
    So I don't want to just talk about the value of the plans. 
I actually want to offer some new ideas and solutions to you as 
well, particularly as the DOD faces the deficit reduction 
efforts. The Navy, for example, has correctly concluded the 
U.S. needs a larger fleet, not just ships and aircraft but 
network capability, longer-range and increased persistence. We 
are losing our monopolies on guided weapons and the ability to 
project power.
    Precision munitions and battle networks are proliferating, 
while advances in radar and electro-optical technology are 
increasingly rendering stealth ineffective. I think Congress 
should look at the possibility of a long-range technology road 
map, which would include a science and technology plan and an 
R&D, a research and development, plan for the Department of the 
Navy and the Air Force. This would call for greater clarity to 
the need for next-generation surface combatant for the Navy, a 
new air superiority fighter jet for the Navy and the Air Force, 
and what low observable capabilities beyond stealth may be 
required.
    This would also highlight some of the things Ms. Pingree 
talked about as well in the need in the technology space for 
more capable anti-ship, land attack and air-to-air missiles, 
next-generation rotary-winged aircraft, satellite 
recapitalization, directed energy and electromagnetic weapons, 
nanotechnology, solid state and fiber lasers, and biotechnology 
as well.
    This road map would look at what our global allies and 
partners are doing and the potential emergence of new players. 
It would also consider capabilities and domains, including 
undersea, cyber and space.
    And lastly, I would conclude with something that I would 
like Dr. Labs to weigh in on. Congress may want to consider 
universal cost estimates among the Office of the Secretary of 
Defense, the Department of the Navy, and the Congressional 
Budget Office, to use a set of consistent costs and methods to 
reduce the wide variances among new shipbuilding plans, the 
defense budgets, the CBO estimates and external analyses. Thank 
you very much.
    [The prepared statement of Ms. Eaglen can be found in the 
Appendix on page 77.]
    Mr. Wittman. Thank you, Mrs. Eaglen. We will now begin with 
our round of questions. I understand we might have some votes 
coming up, so we will try to integrate our questioning amongst 
the vote schedules.
    Mr. O'Rourke and Dr. Labs, I appreciate your insight into 
the process, and you both indicated how valuable this document 
is to you in decisionmaking and the efforts that you have to 
put forward. Let me ask this: You had heard in the previous 
testimony about some suggestions about the length of the entire 
scope of the planning process, 20 years versus 30 years. I want 
to get your perspective, a little more specificity on your 
perspective on 20 versus 30 years and what that 10-year period 
of time creates as far as value in the planning process.
    And then give me a perspective, too, on the current regime, 
which is, we are providing a 30-year aviation and shipbuilding 
plan in relation to the QDR, which is on a 3-year cycle, versus 
the proposal, which is to go to a 1-year cycle. Can you--I want 
you to speak a little bit to the utility of doing an update on 
an annual basis versus in concert with the QDR, and then 20 
years versus 30 years as far as the scope of the plan. Mr. 
O'Rourke.
    Mr. O'Rourke. In terms of 20 versus 30, I think it is very 
important to note that the two major shortfalls that I have 
highlighted in my testimony, the one for cruisers, destroyers 
and the one for attack submarines, the majority of the years of 
those shortfalls are revealed in the final 10 years of the 30-
year plan. If you didn't see those final 10 years, you might 
assume that those shortfalls might be closed up on their own 
over time through natural build rates. It is only because we 
saw the final 10 years in that 30-year plan that we see that in 
fact those shortfalls are open-ended.
    And as I mentioned in my opening statement, that can have a 
big difference in terms of the kinds of options you might want 
to entertain for how to address those shortfalls. If you 
thought this was just going to be a dip that was going to close 
up on its own accord over the long run, you might then simply 
look at SLEPing some of your existing ships to fill in that 
valley. But if you see that it is more of an open-ended 
shortfall, then you might want to give more consideration to 
actually putting extra ships into the shipbuilding budgets. 
That is the signal you get from seeing the final 10 years of 
the 30-year plan. You wouldn't get that signal if the final 10 
years weren't there.
    And because the middle years of that 30-year plan have the 
Ohio replacement program in it, that might give rise to 
consideration for putting any extra ships in the shipbuilding 
plan into the first 10 years of the 30-year plan, the period we 
are looking at right now. That is how the significance of the 
final 10 years can actually reverberate into the present time.
    Moreover, as I mentioned in my opening statement, those 
final 10 years show you the projected retirement dates of the 
ships whose projected retirement dates do not show in the first 
10 or 20 years, and because the average life of a Navy ship, 
when you look across all the classes on a weighted basis, is 
about 35 years, it completes your understanding of the 
assumptions that the Navy is making about expected service 
lives for its ships because the vast majority of those expected 
retirements will now be within that 30-year period. They would 
not be in there on an only 20-year basis.
    In terms of once every 4 years versus once a year, if you 
do it once every 4 years, but then the FYDP comes up every year 
and puts differences into that, you then have to start running 
two sets of books on the issue. And, in fact, I was in that 
situation earlier this year before the Navy submitted their new 
30-year shipbuilding plan, which they did in late May. Prior to 
that, I had to try and reconcile the FYDP data from this year's 
budget with the 30-year plan from a year ago, and there were 
differences between the two, and I had to start running two 
sets of tables to present every situation, which were loaded 
with a lot of footnotes to explain the discrepancies. And my 
sense was that this made the situation a lot harder for Members 
and staff to understand.
    And so, when you get a situation where you submit a 30-year 
plan once every 4 years, but the FYDPs nevertheless change 
every year, you run into this complication that I think makes 
it harder for people to understand what they are looking at, 
and that can hinder effective oversight.
    Dr. Labs. Mr. Chairman, I can't really improve upon what 
Mr. O'Rourke just said, and I would echo each of his points 
identically. I would add just a couple of things to that.
    One is that you see, his first point about sort of the 
importance of it, you see the shortfalls are unveiled in the 
last 10 years of the plan. If you could actually compare the 
shipbuilding plans, as I sort of do on a routine basis as a 
part of the oversight work that I do, the original 313-ship 
plan that the Navy put out back in the fiscal year 2007 plan, 
around the 2006 time period, showed at that time at the end of 
the planning period a 15-ship shortfall in large surface 
combatants. You might think that that might have been all it 
was. But as the planning period got extended even under that 
plan, that shortfall was going to grow to 20-plus ships as 
well, and we are still seeing the same thing today. So the 
value of that long-term perspective, whether the Congress 
chooses to take that information and act upon it or not seems 
to me is highly valuable.
    I would also add in terms of there was some discussion in 
the previous panel about sort of the difficulties and 
complexities of projecting out that last 10-year period. And I 
guess I would disagree that I don't think it actually is all 
that difficult or all that complex to do, depending on what the 
Department is trying to achieve with that 10-year window. If 
you are trying to simply give a picture of that 10-year window 
as to what are the numbers of ships that might be required 
based on current requirements and assumptions, then it is 
really not hard to put the ships you need into the plan and 
come up with a notional cost based on historical cost 
relationships and give that information, give that information 
to the Congress. And if, as the some members of the previous 
panel stated, that not much changes in that 10-year window, 
then it is really not that difficult then to produce a bill on 
an annual basis.
    If, on the other hand, as was also indicated in discussion 
of the service lives issue, if op tempo is changing the service 
lives of ships or aircraft on a year-to-year basis because we 
are using them a lot and therefore maybe they don't serve in 
the fleet as long as we would have expected, we very much would 
want to see on a year-to-year basis how those changes, how that 
op tempo is affecting the long-term projections of the fleet.
    Mr. O'Rourke. Just one additional point to add to that on 
the 4-year versus the 1-year issue. If you run into--if you run 
a process where you submit the 30-year plan once every 4 years 
and that 30-year plan reveals shortfalls or other issues that 
someone might find inconvenient in the executive branch, then 
that would give them the opportunity when that 30-year plan 
becomes 1 year old or 2 years old or 3 years old to begin to 
discount the importance of those oversight issues for Congress 
on the grounds that they are based on a plan that might no 
longer be accurate. And I don't know if Eric wants to add 
anything to that.
    Dr. Labs. We have actually had that experience in various 
meetings and briefings over the last 5 years, where certain 
plans would be out of date of certain types, and they would 
say, well, that is old, and things have changed since then. But 
they were not then willing to offer up well what exactly has 
changed that we would have to wait until whenever the next 
budget submission would be.
    Mr. Wittman. Okay. Mrs. Eaglen, I want to the pursue a line 
of questioning with a comment that you made concerning a peak 
in Air Force resource needs, especially when we have a tanker 
program coming to maturation, the F-35 program coming to 
maturation at the same time we have the strategic bomber 
program that reaches its height, and the costs that are 
reflected in that. Do you believe that under the current 
planning process, that that difficulty is accurately reflected? 
And again, I want to look at, are we really able to properly 
project that to make sure that at that time, we are now aware 
of the stresses that that will put on resources in a fairly 
challenging time of resources? I want you to comment on that.
    And then I think you also brought up an interesting 
perspective on one element of this strategic planning process 
that does seem to be lacking, and that is, on the Army side of 
things, with rotary-winged aircraft and other assets there that 
should be part of a planning process that we put in place that 
is similar for ships and other aircraft, that element of the 
planning process does seem to be lacking, so I want to get your 
perspective on the scope of what we may want to consider as far 
as the Army's involvement in the process, what they ought to 
possibly bring to the table as far as planning to make sure 
that we have a proper representation in evaluation of what the 
needs are from top to bottom within DOD.
    Ms. Eaglen. Absolutely. Thank you. Regarding, you know, do 
we have a good sense of this bow wave, this pressure, 
particularly on Air Force aviation plans in the early 2020s, I 
would argue, no. And the plan lacks the detail that Dr. Labs 
just identified that is required. But at least it gives you an 
avenue to ask these questions. You would not be able to ask 
them without this.
    So, for example, the fiscal year 2011 aviation plan and 
then you compare it with the 2012, the year-over-year 
assumptions changed pretty dramatically in terms of available 
resources to the Department of Defense. Basically, the 2011 
plan called for a 3-percent real growth in aviation funding as 
if there was an aviation pot of money, but similar to the SCN 
[Shipbuilding and Conversion, Navy] account. And the 2012 plan 
just 1 year later suggests zero real growth after 2017 and 
didn't even address the years between now and then. Not sure 
where specifically that came from, if this was just a 
prediction by the Secretary made 1 year or not or President 
Obama's deficit reduction goals. But these are important 
because what the plan said year over year, it reduced plan 
spending from $268 billion to $259 billion in just this 1-year 
change. And it is unclear where that was effected in the plan. 
But if you look at the total fleet size of the aviation force, 
while the number stayed relatively healthy, even though the 
costs had decreased--available--the assumption of the costs of 
the resources available, it was at the high-end where we are 
seeing those shortfalls that manifest themselves, so the 
unmanned systems, for example, stayed very healthy in terms of 
numbers available under the new cost assessment, but the 
fighter attack fleet, the strategic lift and bomber aircraft 
all fell year over year. And I believe that is a direct result 
of reduced money available to the Department, but they don't 
make that connection. This is something that Members are 
certainly interested in.
    I do believe that, in going to Mr. Cooper's point earlier, 
I don't think that these plans need to have every single piece 
of data in them. And we could certainly get into trainer 
aircraft, for example, and other types of unmanned systems that 
are already alone pretty significant. But I think rotary-winged 
in particular is important because of a couple of reasons. We 
know that the multiple Services need to develop a next-
generation rotary-winged aircraft or whatever it is, an attack 
helicopter or something else. And those plans are actually, if 
the Department had been serious about this, should have begun 
about 5 years ago. So that the R&D would be coming online just 
about now. Heavy lift aircraft and rotary-winged are something 
the last panel brought up as well, and I believe that is true 
in particular for the Navy. Their MH-53E Dragon helicopters are 
the only heavy lift planes that they have in the fleet, and 
they are not going to last forever. And there is no discussion 
or at least clarity in terms of the R&D planning that is 
required today. If we want to put this in the fleet by 2019, we 
are looking at basically 2013, next year's budget, or 2014 at 
the latest to do that.
    Mr. Wittman. Very good. Thank you, Ms. Eaglen. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. All the witnesses on 
this panel seem to like the requirement that the Pentagon do 
the 30-year shipbuilding report. In fact, for some of you, it 
is your favorite report it seems like. Two of you work for a 
government agency. Does either the Library of Congress or CBO 
have a 30-year plan?
    Mr. O'Rourke. I am not aware that the Library of Congress 
has a 30-year plan, no.
    Dr. Labs. No, Mr. Cooper, I am not aware that CBO has a 30-
year plan.
    Mr. Cooper. Have either of you advocated for a 30-year plan 
for your agency?
    Mr. O'Rourke. It is not my role to advocate policy for the 
Library of Congress one way or the other.
    Mr. Cooper. Well, just informally, speaking as a citizen, 
do you think it would be a good idea for the Library of 
Congress or the CBO to have such a plan?
    Mr. O'Rourke. As a general management practice, if an 
entity is involved in the construction of capital assets that 
have very long lifetimes, it might then make sense for that 
entity to have a planning process in place that encapsulates 
the lifespan of those assets.
    Mr. Cooper. But bottom line is, neither one of your 
agencies has such a plan and for various reasons, one hasn't 
been advocated apparently.
    Mr. O'Rourke. I can't say that our agency doesn't have that 
plan, but I am not aware of one.
    Mr. Cooper. You seem to be a very informed person. I think 
you would be aware of one if they had one. Another line of 
questioning is this: It seems to me that core competency for 
military service is preserving warfighting capability, not just 
during their tenure as officers but in their hand-off. It also 
seems to me that we had quite a capable military before this 
30-year requirement was put into place; 10 years ago or 1 year 
ago, depending on whether you are talking ships or aircraft.
    But now we have layered on this new requirement that almost 
assumes that our general officers are incompetent or 
untrustworthy because otherwise, they can't be trusted to 
deliver capability in the future that will sustain our great 
Nation.
    Mr. O'Rourke. I think it is a question, as you put it, 
about whether the requirement implies incompetence on the part 
of the military. Even before the 30-year plans were submitted, 
the DOD was in the regular practice of looking at these years 
out beyond the end of the FYDP anyway in something they called 
the extended planning annex. They still do that today. And so 
what this does is not imply, in my view, incompetence on the 
part of the military officers. What it does instead is give 
visibility to Congress of this long-range planning data, which 
can be helpful in congressional oversight but which Congress 
previously did not have visibility into.
    Mr. Cooper. Well, we are very good at pretending to be 
armchair generals and admirals. The question is whether we have 
a stronger nation as a result. And as you know, defense bills 
used to be quite short. Now they are incredibly long. They are 
full of red tape, and sometimes we can't even get out of our 
own red tape. And this, I am worried, is another one of those 
red-tape requirements that ensures future generations of 
armchair generals and is very satisfying for oversight but not 
necessarily helpful to warfighters.
    Mr. O'Rourke. I agree that the burden of preparing a report 
for Congress should be weighed against its value, and I stated 
that in my prepared statement for this hearing. In my view, 
this is a valuable report for assisting congressional oversight 
into issues relating to the Navy. Ships are central to the 
Navy. You can't have a Navy without them. It is the thing that 
they spend the largest ticket items on, and so, in my view, 
there are grounds for people to come to that conclusion if they 
should so wish, that the report, in fact, is worth the amount 
of time needed to put it together.
    And as Eric indicated in one of his earlier responses, if 
the plan doesn't change very much from year to year, then the 
burden of preparing a new one each year is not necessarily that 
great. But if the plan does change a lot from year to year, 
then that in fact becomes a reason why Congress might in fact 
need to get it every year so that it can have that changed data 
on a timely basis and not work off of outdated information.
    Mr. Cooper. If I could reclaim my time. I am limited by the 
chairman.
    I would suggest when you say in oral testimony that the 
Navy is like driving a truck in the dark down a road without 
headlights unless we have such a report, that that is close to 
an allegation of incompetence.
    Mr. O'Rourke. I didn't say that. I said that the value of 
it for Congress is in providing that advance warning because if 
Congress doesn't have this report, it is very difficult for 
Congress to see that far ahead, except by making a lot of 
assumptions which may or may not match actual DOD planning 
assumptions.
    Mr. Cooper. Then you are accusing them of untrustworthiness 
and not revealing to Congress what their true intentions are.
    Mr. O'Rourke. No, not at all. I am simply saying that 
Congress has visibility into this data when they have a 30-year 
report, and I am not aware of another mechanism by which 
Congress can regularly become acquainted with this data in a 
structured manner.
    Mr. Cooper. Remember, we succeeded quite well for many 
decades without it, and driving in the dark without headlights 
is not a pretty picture under any circumstances.
    Another line of questioning. If we do care about the 
future, and I think we should, remember that the Federal 
Government is the only large entity left in America that 
refuses to use real accrual accounting, which takes into 
account future obligations. None of you have advocated for 
that.
    And as I mentioned earlier, the Pentagon is one of the 
least auditable of all government agencies, even using the 
limited cash accounting standard. So if we do want to focus on 
the future, as I believe we should, we need to do this in 
useful, rigorous ways that do not tie us down in red tape, that 
allow us to focus on some of the harder issues, which are a 
capable industrial base, an agile industrial base, so that we 
can respond to threats.
    Otherwise, I am worried that we are advocating osteoporosis 
or something like that that just will harden an outlook so that 
we meet the plan. And the glory of America has been flexibility 
and ingenuity and genius, not 5-year plans or 30-year plans 
like the former Soviet Union and just wanting to stick with 
that new blueprint. So it is very important that we balance 
objectives here. And this panel at least seems to have all 
folks who love the idea of 30-year plans, and that worries me.
    Dr. Labs. Mr. Cooper, I would say that CBO routinely looks 
long-term over a lot of things. In fact, we have a 75-year look 
at such things like Social Security and Medicare because you 
don't get sort of the long-term effects of what it is going to 
mean for the Federal deficit, for the Federal budget situation.
    Mr. Cooper. I am quite well aware of that.
    Dr. Labs. Yes, sir. I am certain that you are. So, in that 
sense, certainly the organization has looked at long-term 
perspectives in a variety of subject areas. I don't look at 
sort of the requirement of a presentation of a 30-year 
shipbuilding or aircraft plan as a question challenging the 
Administration's or the Services' competence.
    What it does is it provides information and visibility to 
sort of what the planning process for future military forces 
should be. And I don't see a disadvantage where more 
information is--I don't see a situation where more information 
in that respect would be a bad thing.
    Mr. Cooper. I think if you look at personnel trend costs in 
the Pentagon, that they are liable in the out-years to crowd 
out all weapons systems.
    Dr. Labs. Yes, sir. The CBO actually puts out publications 
that show that.
    Mr. Cooper. I am aware of that. It is a little bit 
different context when you are talking about new weapons 
platforms to meet as yet unheralded threats. I mentioned 
supercavitation earlier. No one anticipated, as one of the 
witnesses mentioned, unmanned aircraft, drones, things like 
that. We have to be flexible. And I trust, at least, our 
admirals and generals to do their jobs and not blindside 
Congress, not to give them a blank check, but to have a capable 
handoff to the next generation of general officers. And that 
seems to be somewhat a question here.
    Dr. Labs. I don't think the presentation of a 30-year plan 
is in any way limiting the flexibility of the Services in 
developing responses to new weapons, new capabilities, new 
security environments. In fact, if anything it would help 
illuminate sort of what is going on and what factors into the 
decisionmaking as they look into the future.
    Mr. Cooper. But it creates an entitlement mentality in 
certain seaports, ship ports, you know, building yards for a 
certain amount of jobs going forward whether the Nation needs 
them or not. It creates that environment of promise, and I 
think it reduces agility.
    I thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Cooper. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. One question on the 
30-year plan, and given, I think, on our capital ships, I think 
30 years is the average life of those ships. Is it important up 
front to make--because don't we use the service life extension 
program for most of our major weapons systems, like ships? Is 
it feasible to incorporate that in the planning process 
directly, that there is going to be a SLEP of these systems? 
Anybody.
    Mr. O'Rourke. We are tending to run our systems longer and 
longer over time. We are running ships over longer lives now 
than we did in previous decades. And that is true for aircraft 
as well. If DOD or the Navy has a program for extending the 
official service life of a platform, it can incorporate that in 
a 30-year plan. What the 30-year plan can also tell you is 
whether there is possibly a need for doing more of that on 
classes of ships or aircraft for which SLEPs have not yet been 
approved. SLEPs are also sometimes not technically feasible or 
cost effective for every kind of ship or aircraft. They could 
be, for example, very difficult to accomplish on attack 
submarines, due to limits on pressure hull life.
    Dr. Labs. I would agree with what Mr. O'Rourke said. And 
the other thing that is sort of at work here is that we have 
done service life extension programs on certain types of ships 
in the past, which has been actually an SCN, usually has been 
an SCN-funded activity. Where the Navy seems to be moving in 
the future as they recognize that certain ships are going to be 
in the fleet longer or longer than anticipated, they try to put 
a lot of that maintenance activity actually in the maintenance 
accounts on a more incremental basis. In other words, the 
Navy's planning going forward has been to do less of sort of 
take a ship out of service for a year and do a major overhaul, 
but rather try to maintain it a little bit better over the 
course of its service life so they can still maintain a higher 
state of readiness and a higher state of utility for that ship 
as possible. But it is certainly something that can be featured 
into the planning process and has occurred so in the past.
    Ms. Eaglen. I would just add that to put service life 
extension in context, the answer to your question is yes. But 
it also can help you take it one step even further into detail 
and highlight the cost-benefit analysis of a service life 
extension versus of the purchase of a brand new system. So the 
C-130 is a good example here. The C-130 center wing box design 
has an inherent weakness, which means all of them will need to 
be replaced. This is in addition to the modernization of all of 
the H models. There may come a tipping point where Congress may 
say, forget it. We want just additional new aircraft. But also 
SLEPs aren't fail-safe. We have seen this with the A-10Cs 
[Fairchild Republic Thunderbolt II close air support jets], for 
example. Those aircraft were recently rewinged, and they had 
their avionics upgraded, and now they are showing fuselage 
cracks, which was not the point of the SLEP in the first place, 
so we may have to go back and reSLEP for example. And again, 
what is the cost-benefit analysis of doing this and the impact 
on the ripple effect on the rest of the fleet?
    Mr. Coffman. How realistic is the objective of a 313-ship 
Navy? Are we chasing a metric versus looking at capability? 
Numerical metric in terms of focusing on capability?
    Dr. Labs. Well, if you think about it in terms of the 313 
is not a numerical metric but actually represents the sets of 
capabilities that the Department of the Navy says it needs to 
meet its warfighting planning scenarios, then whether it is a 
realistic--it is certainly realistic that the Navy could build 
the ships it needs to achieve that metric and particularly the 
components of the Navy, the different components of ships that 
would present the capabilities that you are referring to. But 
in terms of the realism, is it realism to achieve that under 
current funding requirements, under current funding levels? 
Under current funding levels of about $15 billion to $16 
billion a year, the Navy is looking at the prospect of about a 
250-ship Navy over a 30-year time period, under CBO estimates, 
without an increase in funding. And so, in that sense, it 
depends very much on what you think your future projected 
funding levels for shipbuilding will be.
    Ms. Eaglen. I would just add the Navy would tell you that 
the number of ships actually includes an analysis of their 
unmanned aerial system capability in the BAMS [Broad Area 
Maritime Surveillance], for example, their maritime mobility 
aircraft, the P8 [Boeing Poseidon anti-submarine warfare 
aircraft] in particular, other unmanned systems, the battle 
network, the sensor grids, that all of this is part of the 313-
ship fleet. So it is, I would agree with the Navy in this case 
that it actually is a capability assessment, although it sounds 
simplistic that it is just a number, but it is more than that.
    Mr. O'Rourke. Part of what the 30-year shipbuilding plan 
does in my view right now is illuminate the possible need for 
re-examining the allocation of DOD resources between, frankly, 
between the Navy and other parts of DOD if people in fact do 
want to achieve a fleet of that size and capability.
    Mr. Coffman. Thank you. Mr. Chairman, I yield back.
    Mr. Wittman. Mr. Young.
    Mr. Young. Mrs. Eaglen, I am most intrigued by your long-
range technology plan, integrating that into our overall 
planning process here. And so I wanted to briefly dig into that 
with you a moment. It seems like right now, we first have the 
National Security Strategy, coming from the White House and the 
President's advisers, driving the QDR, and then you propose 
adding an additional step after the QDR step, before we come up 
with our inventory goals for our ships and our aircraft 
production. Is that correct? Did I put it in the right spot 
there in terms of the sequencing?
    Ms. Eaglen. I am open to the timing. I am open to the 
sequencing. It could be off year every two, so your R&D, S&T 
[science and technology] could be after the QDR.
    Mr. Young. But the developers of the technology road map, 
as you have styled it, would look to the QDR for strategic 
guidance presumably, right?
    Ms. Eaglen. Presumably, if the QDR takes a 20-year review, 
which this last one did not.
    Mr. Young. Okay. Which leads me to my next set of questions 
here. You have I think correctly indicated that any such 
document should prioritize our needs for additional investment 
and different capabilities based on those perceived threats and 
estimated threats out there.
    Right now, under the most recent QDR, it seems like the 
prioritization should begin there, maybe should begin with the 
President and the National Security Strategy. Do we have that 
prioritization under the current strategic thinking occurring 
in the Administration? Do we have enough direction to be able 
to develop or prioritize long-range technology or R&D plan?
    Ms. Eaglen. Unfortunately no, so it does raise a difficulty 
in terms of doing it, but it doesn't mean it shouldn't be done. 
Because, for example, the last QDR was issued in the absence of 
a National Security Strategy, and it was largely based on a 
National Defense Strategy issued under the previous 
administration. And I would think Congress would have some 
problems with the Department not meeting its statutory 
obligations.
    It also largely renders the document ineffective or at 
least not tied to the current administration's foreign policy 
of which defense policy is a derivative. In this case, we had 
the cart before the horse.
    The Secretary in his recent speech at the American 
Enterprise Institute basically alluded to shockingly some 
shortfalls in the QDR planning process, which I think should 
inform the NDAA debate this year, in fact, saying that there 
isn't a good link to force structure, and certainly I am 
paraphrasing here of course, and some other challenges therein.
    The last QDR served to simply justify the 2010 defense 
budget. I didn't see it as much more, not to be overly 
simplistic. So it does pose a challenge for a long-term R&D and 
S&T plan, but it doesn't make that need irrelevant, because 
neither of those are really being talked about now.
    For example, in the aviation plan, we heard the Navy talk 
about the need for a next-generation air dominant fighter some 
time after 2019. The Air Force says they need a new cargo jet, 
but we are getting ready to shutting down our only wide-bodied 
air production line right now. So, I mean, these are, like I 
said, it is all about the back end clarifying the front end 
investment choices.
    Mr. Young. Right. So to break this down to the sort of 
real-world decisions that those of us in Congress and even 
people in the Pentagon are asked to make, career military 
people, I think prioritizing whether we invest in satellite 
recapitalization or next-generation rotary-winged aircraft and 
setting those priorities and determining what level we are 
going to fund each respective technology becomes impossible, 
frankly, to do in an informed fashion unless, first the 
Administration and then the Pentagon with their robust QDR, 
unless they do their homework. Am I correct in that analysis?
    Ms. Eaglen. Yes, you are.
    Mr. Young. Okay. Where in your estimation in this model 
from QDR to the technology road map and setting the inventory 
goals, at what point do we consider resource constraints, 
especially since our Chairman of the Joint Chiefs and many 
other observers have noted that our national debt constitutes 
our Nation's greatest national security threat. When do we 
consider those resource constraints, is it way back in the QDR 
process or the National Security Strategy, or is it after we 
have developed inventory goals for our Navy?
    Ms. Eaglen. Well, DOD currently does it as part of the QDR 
and the 2010 QDR said, vaguely referenced here, that it took 
resource constraints into account, you know. It didn't project 
I think a cost growth zero percent or 3 percent, but something 
about an inflation-adjusted flat defense budget, roughly 
speaking, was what it predicted. So that is one way of taking 
into account.
    Now that doesn't take into the roles and missions review 
that is ongoing now that is going to need to inform the next 
QDR because it is going to be significantly different with up 
to $400 billion in cuts.
    Mr. Young. But looking to previous years or previous 
decades investment in say shipbuilding is probably not the best 
way to benchmark future investments.
    Ms. Eaglen. I think that is fair.
    Mr. Wittman. Mr. Palazzo.
    Mr. Palazzo. If we have time, I have one question.
    Mr. Wittman. Just a minute, please, go ahead.
    Mr. Palazzo. Thank you, Mr. Chairman. Ms. Eaglen, in April, 
your organization put out a report on defense spending entitled 
``A Strong National Defense: The Armed Forces America Needs and 
What They Will Cost.'' It recommends, among other things, an 
attack submarine force, with 55 boats compared to the Navy's 
current requirement of 48. The report also calls for a force of 
37 amphibious ships compared to the Navy's fiscally constrained 
goal of 33. Can you tell me how you came up with those figures?
    Ms. Eaglen. Sure, this was not meant to be an alternate QDR 
document by any means. It was really linear and it was at the 
request of several members of your committee.
    A quick holistic look around the world at the threats today 
as they are, not necessarily what they are going to be in 20 
years, but certainly taking that into account, saying these are 
the capabilities required for major contingencies or even some 
minor ones, and this is what it costs.
    On the attack submarine front, I think the last panel 
basically agreed with our assessment that the current fleet is 
the minimum required. In fact, Admiral Blake said that they are 
looking to add an additional attack submarine in fiscal year 
2018 and saying that decision would be made next year by the 
Department, because that is how much in advance they need to 
plan for that.
    Our ``bath tub'' or our shortfall in attack submarines 
exists not just in the future in terms of numbers but, as 
another member referenced, it is actually today in terms of 
meeting combatant commander requirements, on any given day, it 
can be less than half up to maybe 60, 65 percent of meeting the 
worldwide requirements. And so we either need to reduce our 
appetite for these needs, or if we are not changing the 
missions, then we need to fund at the appropriate level.
    On the amphibious side, the Navy has previously said that 
they need 38 of these ships, but they can live with 33 because 
simply it is unaffordable. So they certainly took resource 
constraints into account. What I am concerned about primarily 
is that the mission set has not changed, and I suppose the 
current roles and missions review may help alleviate this 
mismatch we are seeing across systems, as you have heard here 
this morning, the high-end requirement is 38, so basically a 
two-contingency scenario. So the Two Marine Expeditionary 
Brigade fulfillment at 33 is adequate, as General Flynn said, 
but it doesn't include all their support equipment. So we came 
out at 37--there is more detail to it, which I could certainly 
speak to--but to help find the right balance between what is 
fiscally affordable and what the Navy said is its low and high 
end requirement.
    Mr. Palazzo. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Wittman. Thank you, Mr. Palazzo. Folks, we are going to 
head on to a vote right now. I thank you so much for your 
testimony today. What I ask, as I did with the last group of 
panelists, if you would let us know again in writing your 
thoughts about what we could do to make the planning process as 
useful as possible, making it as streamlined as possible. I can 
assure you that this planning process is not an attempt to 
question the integrity of any of our military leaders, but it 
is incumbent upon us as Members of Congress to assert our 
Constitutional duties in oversight. And that is getting 
information from the executive branch in order to make sure 
that we are performing those proper duties. The way we do that 
is to get good, accurate and timely information from the 
Department of Defense, and I do think that is necessary for 
planning.
    And I would agree that short of that, how do we make proper 
decisions? So I would say that we are trying to find the best 
balance with the planning process and the timeliness of it.
    So if you could give us, again, your thoughts, and many of 
those you gave us here today, that would be helpful, because we 
do plan on pursuing how to make sure we make that planning 
process as functional and as useful as possible.
    So thank you, again, for your testimony today. I will 
adjourn the committee.
    [Whereupon, at 1:07 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                              June 1, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              June 1, 2011

=======================================================================

      
                     Statement of Hon. Rob Wittman

         Chairman, Subcommittee on Oversight and Investigations

                               Hearing on

                     Efficacy of the DOD's 30-Year

                    Shipbuilding and Aviation Plans

                             April 13, 2011

    The main purpose supporting the 30-year shipbuilding and 
aviation plans requirements is to ensure effective 
congressional oversight of DOD plans by giving Congress the 
information we need to make decisions on issues that are not 
consistently available in the five-year data of the Future 
Years Defense Plan (FYDP).
    In my view, we tend to spend too much time arguing about 
tactics when we're discussing these plans, and not enough time 
focused on long-term strategy. We are constantly reacting to 
events rather than planning for them, resulting in a system 
that is burdened with waste and inefficiency.
    We cannot afford to do this any longer. The stakes are too 
high and we owe it to the American taxpayer to insist on well 
thought-out, fiscally sound, long-term policy decisions that 
shape our national defense strategy.
    The central question, put in simple terms, is: Are we doing 
the best job we can when we develop and implement our 30-year 
plans to meet our Nation's current and future threats?
    To illustrate this point, I want to highlight just a few 
examples of what I'm talking about:

        <bullet> LThe decision to not build submarines in the 
        1990s which has created a shortfall in the attack 
        submarine force structure that we won't be able to fix 
        in the foreseeable future;

        <bullet> LDecisions to cut or efforts to kill a number 
        of programs including the F-22 fifth-generation 
        fighter, the C-17 cargo aircraft, and the Air Force's 
        combat search and rescue helicopter--all of which 
        arguably place American air supremacy at risk; and

        <bullet> LEnding purchases of the next-generation DDG-
        1000 destroyers and killing the MPF-A large-deck 
        aviation ship--reducing our Navy to the smallest it's 
        been since 1916.

    While arguments can be made to support the reasoning behind 
these decisions, no one can argue about the number of growing 
threats we face from both state and non-state actors, each with 
ever-expanding capabilities ready to challenge our own.
    Between force reductions, a dramatic slowing of new starts, 
and closures of production lines, America's domestic industrial 
strategy is slowly being whittled away, emphasizing the need 
for smart long-term strategic planning.
    We will hear from two panels. Witnesses from our first 
panel are:

        <bullet> LMajor General Richard C. Johnston, USAF, 
        Deputy Chief of Staff for Strategic Plans and Programs, 
        U.S. Air Force;

        <bullet> LVice Admiral P. Stephen Stanley, USN, 
        Principal Deputy Director of Cost Assessment and 
        Program Evaluation, Office of the Secretary of Defense;

        <bullet> LVice Admiral John T. Blake, USN, Deputy Chief 
        of Naval Operations, Integration of Capabilities and 
        Resources (N8); and

        <bullet> LLieutenant General George Flynn, USMC, Deputy 
        Commandant for Combat Development and Integration.

    For our second panel, we will receive testimony from:

        <bullet> LMr. Ronald O'Rourke, Defense Policy and Arms 
        Control Section, Congressional Research Service

        <bullet> LMr. Eric Labs, National Security Division, 
        Congressional Budget Office; and

        <bullet> LMs. Mackenzie Eaglen, Research Fellow for 
        National Security Studies, The Heritage Foundation

    I look forward to hearing our witnesses' views on this 
important subject and discussing how we can ensure that as we 
make difficult policy decisions on long-term procurement issues 
we don't inadvertently place our national security at risk.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              June 1, 2011

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. WITTMAN

    General Flynn. Before submitting the Department of the Navy (DON) 
30-Year Aircraft Investment Plan to OSD, the Navy and Marine Corps 
assess affordability of the entire Naval Aviation portfolio to include 
fixed-wing, rotary-wing, and unmanned aircraft systems. For that 
reason, rotary-wing aircraft should be included in the 30-Year Aircraft 
Investment Plan. [See page 9.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              June 1, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. What are your thoughts for ways to improve the 30-year 
shipbuilding and aviation planning process?
    General Flynn. 1. The shipbuilding plan serves to provide Congress 
with a resource strategy for Naval force employment--a strategy that is 
developed through a shared Naval vision. Today that strategy exists in 
Cooperative Strategy for 21st Century Seapower, a shared vision between 
the Navy, Marine Corps and Coast Guard in support of the President's 
National Security Strategy. This strategy is placed into operational 
terms by the Naval Operations Concept 2010 (NOC 10) which describes 
when, where, and how U.S. Naval forces contribute to enhancing national 
security, preventing conflict, and prevailing in war. The shipbuilding 
plan is the end result of matching the necessary resources to support 
both the cooperative strategy and the operations concept.
    2. The shipbuilding plan development must be an integrated process, 
combining naval strategy, its operational concepts, and resource 
allocation. The process would be enhanced by including a Naval risk 
assessment that defines the shortfalls between operational needs and 
resources across the full range of military operations.
    3. The following comments apply to the 30-Year Aircraft Investment 
Plan.

        A.  Include rotary-wing aircraft in the 30-Year Aircraft 
        Investment Plan (AIP). Before submitting the Department of the 
        Navy (DON) 30-Year AIP to OSD, the Navy and Marine Corps assess 
        affordability of the entire Naval Aviation portfolio to include 
        fixed-wing, rotary-wing, and unmanned aircraft systems.

        B.  Adjust scope of the 30-Year AIP to 20 years instead of 30 
        years to reflect well-defined requirements and reasonable cost 
        estimates.

        C.  Adjust the report timeline to allow Selected Acquisition 
        Reports (SARs) to advise the AIP; SARs are submitted in April.

        D.  Consider tying the AIP requirement to the Quadrennial 
        Defense Review (QDR). There are minor changes to the AIP from 
        year to year that primarily reflect changes to service budget 
        priorities. By tying the AIP to the QDR, Congress will be 
        better able to track programmatic adjustments related to 
        changes to defense strategy and threat posture.

    Mr. Wittman. What are your thoughts for ways to improve the 30-year 
shipbuilding and aviation planning process?
    Admiral Blake. The Department of the Navy supports the requirement 
for the submission of the Long Range Shipbuilding and Aviation Plans as 
they provide important information for Congress, the Department of 
Defense, and industry to make critical investment decisions. These 
plans support the Department's ability to build a force structure in 
accordance with requirements addressed in the National Defense 
Strategy, the Maritime Strategy and the 2010 Quadrennial Defense 
Review; however, some modification to the timing for submission and the 
time period required for investment projection will likely increase the 
accuracy and value of these reports.
    The shipbuilding report would be improved if its scope was limited 
to a period of twenty years, with the submission of funding tables for 
only the first ten years. The first ten years of the report are the 
most definitive aspect of the report, both in terms of requirements and 
cost data, and would provide the data necessary for meaningful analysis 
by outside entities such as the Congressional Budget Office (CBO) and 
Congressional Research Service (CRS). The second ten years relies on 
analysis of trends and projections, and the cost data is not as 
accurate. However, the data tables provide valuable information 
concerning future acquisition intentions for various ship platforms 
necessary to meet the perceived and anticipated threats.
    The Department of the Navy fully supports the amendment to the 2011 
Ike Skelton National Defense Authorization Act, changing the 
requirement of the shipbuilding report from an annual requirement to 
one that requires the plan be submitted only in QDR years. However, 
submission of the report in the year following the QDR vice in the year 
of the QDR would improve the efficacy of the report. This would permit 
better synchronization within the Department of Defense since 
sufficient time would have elapsed after QDR delivery to interpret the 
broad strategy and guidance against the practical requirements and 
resources backdrop. Such a process would allow the Department of the 
Navy to align its plans with the QDR submission. Finally, the existing 
requirement to submit a shipbuilding report when the number of ships 
drops from previous submissions should also be reconsidered. A single 
ship deletion or move from one year to the next is not an indicator of 
success or failure of the shipbuilding plan, and typically does not 
provide a change of sufficient substance to warrant a new submission.
    The aviation report can be improved by inclusion of all aircraft in 
the report. Fixed wing, rotary wing, unmanned aerial systems, and 
trainer aircraft are all part of the Navy and Marine Corps aviation 
planning and programming process. Each platform has capabilities that 
are delivered through sufficient capacity that must be balanced in an 
affordable, integrated warfighting plan. Congress could then view the 
aviation plan in its full context. As with the shipbuilding plan, Navy 
recommends that subsequent aviation reports be limited to a twenty year 
timeframe due to the highly speculative nature of future threats and 
technology. Also in line with the shipbuilding plan, the aviation 
report should be submitted every four years in the year following each 
QDR.

    Mr. Wittman. What are your thoughts for ways to improve the 30-year 
shipbuilding and aviation planning process?
    Admiral Stanley. Because of our inability to precisely predict the 
future, 30-year plans should not be viewed as precise roadmaps for 
execution. Instead, the planning process used to assemble the reports 
provides a useful opportunity to consider and confront outyear 
implications of near-term decisions. By finding problems early, the 
Department can work to plan a program that will meet needs, but spread 
the costs and industrial workload more reasonably.
    Both plans should be submitted every four years. Current 
legislation requires the 30-year shipbuilding plan to be submitted 
every four years while the 30-year aviation plan is submitted annually. 
Given that the first five years of the plans contain the same 
information that is included in the President's Budget FYDP and that 
the period beyond the FYDP is less subject to change, submission of 
both plans every four years would reduce the burden of producing the 
reports while allowing Congressional oversight.
    Submission of both plans in the year following the Quadrennial 
Defense Review (QDR) would be an improvement. Current law requires the 
shipbuilding plan to be submitted in the same years as the QDR; 
however, this may provide insufficient time to incorporate QDR results. 
Delaying submission until the year following the QDR would ensure that 
the plan reflects the new strategy. Additionally, three Congressional 
reports require integration: The President's budget, the Selected 
Acquisition Reports and the 30-year plans. In order to allow this 
integration, submission of the 30-year plans should be required 60 days 
after submission of the President's budget request.
    Reducing the time-frame covered by the plans to 20 years would also 
be an improvement. Future projections are always speculative however, 
those beyond 20 years are even less credible. While there is value in 
looking ahead, especially to the near future, we should recognize that 
the accuracy and value of the plans diminishes the further we get 
beyond the FYDP.
    We understand your important oversight role and want to provide 
information that empowers Congress to fulfill its responsibilities. I 
believe that implementing these improvements will result in a more 
balanced approach to our shipbuilding and aviation planning.

    Mr. Wittman. What are your thoughts for ways to improve the 30-year 
shipbuilding and aviation planning process?
    General Johnston. The United States Air Force takes very seriously 
its Strategic Planning process in order to better understand the 
impacts of the decisions made today, and to identify issues we will 
face in the out-years. We believe our planning greatly informs and 
improves the way we budget in order to provide the most capable Air 
Force at the best value for the nation's defense. Over the past two 
years, the 30-Year Aircraft Procurement Plan has been incorporated into 
the Air Force's Strategic Planning System. This past year's process for 
the second plan built for Congress was well executed, allowing the Air 
Force the opportunity to provide the Office of the Secretary of Defense 
(OSD) its input to the report. We are cognizant of the need for the DoD 
to provide the committee this report in a timely manner, and will 
continue to improve our processes to meet the needs of the Congress.
    Two changes can help improve the planning process and the utility 
of the report. First, the requirement to submit an annual report should 
be modified to require the plan every two years or upon specific 
request by the Congress in response to a strategically significant 
budgetary change. The plan is rooted in national strategic documents 
that are modified either biennially or quadrennially; therefore the 
basis for the planning changes little each year. As such, the 
requirement to submit the report annually provides only marginal 
benefit. Second, a modification from a 30-year to a 20-year Aircraft 
Procurement Plan would prove just as useful in matching strategy to 
long-range planning because predicting the security environment and 
technological needs of national defense beyond 20 years into the future 
is highly speculative and adds little value to the national defense.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HANABUSA
    Ms. Hanabusa. Reflecting back on your graduation from the Naval 
Academy 36 years ago, do you think you would have been able to predict 
where we are today with regards to shipbuilding needs and current 
status of United States shipbuilding efforts? How impossible of a task 
is it to accurately predict needs thirty years in the future?
    Admiral Blake. In the last thirty years, no one could have 
predicted the Vietnam drawdown, the end of the Cold War in the 1990s, 
the tragic events of September 11th, or the fact that we would be 
involved in two wars today. None of us can predict with 100% accuracy 
what the future will hold. I do, however, believe that planning is 
indispensable and that the Navy's planning process provides valuable 
insight into projected future shortfalls and needs from the 
shipbuilding industrial base. For example, if we did not do long range 
planning then we would not be able to identify the significant funding 
challenge with the OHIO Replacement Program or that our inventory of 
surface force combatants and submarines declines in large numbers in 
the 2020s. With this insight, we can make decisions and plan changes 
earlier to address concerns such as these projected shortfalls.

    Ms. Hanabusa. Reflecting back on your graduation from the Naval 
Academy 36 years ago, do you think you would have been able to predict 
where we are today with regards to shipbuilding needs and current 
status of United States shipbuilding efforts? How impossible of a task 
is it to accurately predict needs thirty years in the future?
    Admiral Stanley. Simple answer is no. There have been many profound 
events that have occurred since my graduation from the Naval Academy. 
Many of these affect our Defense Strategy and how we view our 
requirement for ships and aircraft. Precise predictions of these events 
or their effects are not possible.
    It is the uncertainty inherent in trying to predict the future that 
diminishes the value of the later years in the 30-Year plans. Outyear 
predictions necessarily involve considerable speculation about such 
things as the future security environment, technology development, 
operational concepts, and fiscal constraints. Long range projections 
unravel in the face of unforeseen developments or advances. An example 
is the recent explosive growth in unmanned aerial systems, which would 
have been impossible to predict 30 years ago. It is because of this 
fundamental problem with long-term prediction that I recommend reducing 
the time-frame covered by the shipbuilding and aviation plans to 20 
years.

    Ms. Hanabusa. Reflecting back on your graduation from the Naval 
Academy 36 years ago, do you think you would have been able to predict 
where we are today with regards to shipbuilding needs and current 
status of United States shipbuilding efforts? How impossible of a task 
is it to accurately predict needs thirty years in the future?
    General Johnston. The 30-Year Aircraft Procurement Plan provides a 
view of how the USAF intends to recapitalize and modernize its 
aircraft. Within the Future Years Defense Program (FYDP) it mirrors the 
President's budget. Beyond the FYDP, the recapitalization and 
modernization predictive profile is less precise further out in the 
future. Nonetheless, the USAF values the time spent developing the 30-
Year Aircraft Procurement Plan for two main reasons. First, it's a tool 
that helps us understand the impact of decisions made today. For 
example, decisions regarding large scale acquisition programs like the 
F-35 and KC-46 will have significant influence on the shape of the Air 
Force ten to twenty years from now. The impact of decisions to delay or 
accelerate procurement profiles can be readily viewed within the plan. 
The second advantage of long-range planning is a greater understanding 
of issues that will need to be addressed in the years outside of the 
FYDP. For example, we recognize the need to invest in the Long Range 
Strike Bomber (LRS-B) and Next Generation Trainer (T-X) during these 
out-years. The plan helps the USAF de-conflict the timing of these 
programs and, in turn, mitigate the risk of unaffordable spikes in 
spending. That said, predicting in the out-years is difficult because 
the future strategic environment will change for a variety of reasons--
to include the capabilities of our allies and future threats.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
